<html>
<title> - LOSING GROUND: THE WAR ON BUFFELGRASS IN THE SONORAN DESERT</title>
<body><pre>[House Hearing, 111 Congress]
[From the U.S. Government Publishing Office]


 
                            LOSING GROUND: 
                        THE WAR ON BUFFELGRASS 
                         IN THE SONORAN DESERT 

=======================================================================

                        OVERSIGHT FIELD HEARING

                               before the

                SUBCOMMITTEE ON NATIONAL PARKS, FORESTS

                            AND PUBLIC LANDS

                                 of the

                     COMMITTEE ON NATURAL RESOURCES
                     U.S. HOUSE OF REPRESENTATIVES

                     ONE HUNDRED ELEVENTH CONGRESS

                             SECOND SESSION

                               __________

              Saturday, April 10, 2010, in Tucson, Arizona

                               __________

                           Serial No. 111-50

                               __________

       Printed for the use of the Committee on Natural Resources



  Available via the World Wide Web: http://www.gpoaccess.gov/congress/
                               index.html
                                   or
         Committee address: http://resourcescommittee.house.gov

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

55-904 PDF                       WASHINGTON : 2010 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 




















                     COMMITTEE ON NATURAL RESOURCES

              NICK J. RAHALL, II, West Virginia, Chairman
          DOC HASTINGS, Washington, Ranking Republican Member

Dale E. Kildee, Michigan             Don Young, Alaska
Eni F.H. Faleomavaega, American      Elton Gallegly, California
    Samoa                            John J. Duncan, Jr., Tennessee
Frank Pallone, Jr., New Jersey       Jeff Flake, Arizona
Grace F. Napolitano, California      Henry E. Brown, Jr., South 
Rush D. Holt, New Jersey                 Carolina
Raul M. Grijalva, Arizona            Cathy McMorris Rodgers, Washington
Madeleine Z. Bordallo, Guam          Louie Gohmert, Texas
Jim Costa, California                Rob Bishop, Utah
Dan Boren, Oklahoma                  Bill Shuster, Pennsylvania
Gregorio Sablan, Northern Marianas   Doug Lamborn, Colorado
Martin T. Heinrich, New Mexico       Adrian Smith, Nebraska
George Miller, California            Robert J. Wittman, Virginia
Edward J. Markey, Massachusetts      Paul C. Broun, Georgia
Peter A. DeFazio, Oregon             John Fleming, Louisiana
Maurice D. Hinchey, New York         Mike Coffman, Colorado
Donna M. Christensen, Virgin         Jason Chaffetz, Utah
    Islands                          Cynthia M. Lummis, Wyoming
Diana DeGette, Colorado              Tom McClintock, California
Ron Kind, Wisconsin                  Bill Cassidy, Louisiana
Lois Capps, California
Jay Inslee, Washington
Joe Baca, California
Stephanie Herseth Sandlin, South 
    Dakota
John P. Sarbanes, Maryland
Carol Shea-Porter, New Hampshire
Niki Tsongas, Massachusetts
Frank Kratovil, Jr., Maryland
Pedro R. Pierluisi, Puerto Rico
Vacancy

                     James H. Zoia, Chief of Staff
                       Rick Healy, Chief Counsel
                 Todd Young, Republican Chief of Staff
                 Lisa Pittman, Republican Chief Counsel
                                 ------                                

        SUBCOMMITTEE ON NATIONAL PARKS, FORESTS AND PUBLIC LANDS

                  RAUL M. GRIJALVA, Arizona, Chairman
              ROB BISHOP, Utah, Ranking Republican Member

 Dale E. Kildee, Michigan            Don Young, Alaska
Grace F. Napolitano, California      Elton Gallegly, California
Rush D. Holt, New Jersey             John J. Duncan, Jr., Tennessee
Madeleine Z. Bordallo, Guam          Jeff Flake, Arizona
Dan Boren, Oklahoma                  Henry E. Brown, Jr., South 
Martin T. Heinrich, New Mexico           Carolina
Peter A. DeFazio, Oregon             Louie Gohmert, Texas
Maurice D. Hinchey, New York         Bill Shuster, Pennsylvania
Donna M. Christensen, Virgin         Robert J. Wittman, Virginia
    Islands                          Paul C. Broun, Georgia
Diana DeGette, Colorado              Mike Coffman, Colorado
Ron Kind, Wisconsin                  Cynthia M. Lummis, Wyoming
Lois Capps, California               Tom McClintock, California
Jay Inslee, Washington               Doc Hastings, Washington, ex 
Stephanie Herseth Sandlin, South         officio
    Dakota
John P. Sarbanes, Maryland
Carol Shea-Porter, New Hampshire
Niki Tsongas, Massachusetts
Pedro R. Pierluisi, Puerto Rico
Nick J. Rahall, II, West Virginia, 
    ex officio
Vacancy
















                                CONTENTS

                              ----------                              
                                                                   Page

Hearing held on Saturday, April 10, 2010.........................     1

Statement of Members:
    Grijalva, Hon. Raul M., a Representative in Congress from the 
      State of Arizona...........................................     1
        Prepared statement of....................................     2

Statement of Witnesses:
    Brock, Dr. John, Brock Habitat Restoration and Invasive Plant 
      Management, Tempe, Arizona.................................    43
        Prepared statement of....................................    45
    Frost, Herbert C., Associate Director, Natural Resource 
      Stewardship and Science, National Park Service, U.S. 
      Department of the Interior.................................     3
        Prepared statement of....................................     5
    Huckelberry, C.H., County Administrator, Pima County, Tucson, 
      Arizona....................................................    36
        Prepared statement of....................................    38
    Krueger, Faye, Deputy Regional Forester, Southwestern Region, 
      U.S. Forest Service, U.S. Department of Agriculture........    10
        Prepared statement of....................................    11
    Mack, Dr. Richard N., Professor, School of Biological 
      Sciences, Washington State University, Pullman, Washington.    28
        Prepared statement of....................................    30
    Norris, Dr. Ned, Jr., Chairman, Tohono O'odham Nation, Sells, 
      Arizona....................................................    13
        Prepared statement of....................................    15
    Smallhouse, Sarah Brown, President, Thomas R. Brown 
      Foundations, Tucson, Arizona...............................    22
        Prepared statement of....................................    25
Additional materials supplied:
    List of individuals submitting documents for the record that 
      have been retained in the Committee's official files.......    48
                                     



 OVERSIGHT FIELD HEARING ON ``LOSING GROUND: THE WAR ON BUFFELGRASS IN 
                         THE SONORAN DESERT.''

                              ----------                              


                        Saturday, April 10, 2010

                     U.S. House of Representatives

        Subcommittee on National Parks, Forests and Public Lands

                     Committee on Natural Resources

                            Tucson, Arizona

                              ----------                              

    The Subcommittee met, pursuant to call, at 10 a.m., City 
Council Chambers, 255 West Alameda, Tucson, Arizona, Hon. Raul 
Grijalva [Chairman of the Subcommittee] presiding.
    Present: Representative Grijalva.

  STATEMENT OF THE HON. RAUL M. GRIJALVA, A REPRESENTATIVE IN 
               CONGRESS FROM THE STATE OF ARIZONA

    Mr. Grijalva. I'll call the Subcommittee to order. Today 
we're having a hearing here in Tucson, a field hearing, on the 
buffelgrass issue.
    And I want to thank all of the panelists for being here and 
all of you who have taken the time on a weekend to join us 
today. Thank you so much.
    I just realized why I never made it to the City Council. I 
would probably have needed a booster chair. But having said 
that, there are some students here that I want to acknowledge 
before opening statements, middle school students who have 
volunteered on the buffelgrass eradication. They are in the 
back of the room somewhere, and I'd like to have them stand up 
so we can acknowledge them and thank them. Are they here yet? 
OK.
    Like I said, thank you for taking time on a weekend. It's 
tough to sit inside on a day like today, but I believe that the 
business at hand is vital to not only this region but everyone 
in the State.
    The issue we will address today, from our panelists, is 
helping us formulate what the Federal response needs to be, 
both in terms of resources and in necessary legislative 
initiatives.
    It's home for all of us and it's home for me. I grew up 
here. Ramona and I raised our family here. Our grandkids are 
being raised here, and like most people in the room, it's not 
only my home but it's the landscape and what this area means to 
all of us that is not only important, but part of our lives.
    And as you came over today, you saw the palo verdes are 
blooming. There's that fragrant, nice desert smell out there 
that's so good, and the prickly pears on the side of the road 
are starting to flower. That's the beauty of this region and 
that's why it's so special.
    And everybody has that picture in their minds of Arizona, 
that kind of draw for millions and millions of people to come 
and visit us and to spend their tourism dollars here in our 
region.
    Yet there's imminent danger to this beautiful land. For the 
last 50 years, buffelgrass has spread so rapidly that large 
portions of Pima and surrounding counties are now covered with 
this invasive weed. Throughout Southern Arizona, this noxious 
plant flourishes wherever it grows.
    And buffelgrass burns hotter and more frequently than 
native grasses. Small isolated fires of native plants are not 
likely to harm saguaro, but if a fire takes hold, if it's a 
large forest, with a large infestation of buffelgrass, the 
forest will be completely wiped out.
    And climate change will only make matters worse. It will 
create conditions that encourage buffelgrass and it will spread 
farther north and literally march across the State.
    If we fail to fight this invasion, this exotic weed could 
forever change our landscape that we all love so much.
    Many of us have played a critical role in slowing the 
spread of this weed, and you have my thanks for all of you who 
have been volunteers, both working with the agencies, thousands 
of hours spent pulling weeds, protecting our homes, preserving 
our desert.
    I know the city and the county, as well as our friends in 
the Saguaro National Park and the National Forest and the 
Bureau of Land Management, not to mention hundreds of 
homeowners and residents, continue to work in addressing this 
problem collaboratively and in earnest.
    Today we will hear from many of those out on the front 
lines about methods they have found to be effective in the 
battle against the weeds, and I look forward to their 
recommendations on how to better coordinate and support these 
efforts.
    [The prepared statement of Mr. Grijalva follows:]

        Statement of The Honorable Raul M. Grijalva, Chairman, 
        Subcommittee on National Parks, Forests and Public Lands

    On a beautiful day like today, it's tough to sit inside, but the 
business at hand is vital to everyone in the State. The issue we will 
address today truly hits home for me. I grew up here, my wife and I 
raised our daughters here, and like most of the people in this room, I 
know this landscape very well.
    As you made your way to City Hall today, you saw why we chose to 
call this place home: the palo verdes blooming along the Santa Cruz, 
fragrant desert willows lining the washes, prickly pears flowering by 
the side of the road. This is the natural beauty that makes Tucson so 
special.
    This splendor in our own backyard is vital to Tucson and southern 
Arizona's leading industry--tourism. Those saguaro cacti covering the 
hills and mountainsides near our homes--that is what people everywhere 
picture in their mind's eye when they think of Tucson. Arizona's iconic 
beauty continues to draw millions of visitors to this paradise every 
year.
    Yet we face an imminent threat to this precious landscape. For the 
last 50 years, buffelgrass has spread so rapidly that large portions of 
Pima and surrounding counties are now covered with this invading weed. 
Throughout southern Arizona, this noxious plant flourished wherever it 
has gone.
    Buffelgrass burns hotter and more frequently than native grasses. A 
small, isolated fire in native plants is unlikely to harm many 
saguaros. But if a fire takes hold in a saguaro forest with a large 
infestation of buffelgrass, that forest could be completely wiped out.
    And climate change will only makes matters worse--it will create 
conditions that encourage buffelgrass to spread ever farther north, as 
if marching across the State. If we fail to fight this invasion, this 
exotic weed could forever change the landscape that we so love.
    Many of you have played a crucial role in slowing the spread of 
this weed and you have my thanks. You have spent thousands of hours 
pulling weeds, protecting our homes and preserving this desert. I know 
that the city and county, as well as our friends at Saguaro National 
Park, in the national forests and the Bureau of Land Management, not to 
mention hundreds of home owners and residents, continue to work on 
addressing this problem collaboratively and in earnest.
    Today, we will hear from many of those on the front line about 
methods they have found to be effective in the battle against this 
weed. And I look forward to their recommendations on how to better 
coordinate and support those efforts.
    With that, I think we are ready to begin hearing from our 
witnesses.
                                 ______
                                 
    Mr. Grijalva. Let me thank all of you for being here today. 
Let me welcome our first panel. The rules of engagement are 
five minutes oral presentation.
    Any written material that you may have will be 
automatically part of the record as will your full statement 
and then there will be time for me to ask questions.
    And I would also encourage all the panelists and other 
members of the community, if they have testimony or additional 
information that they want to be made part of the record, that 
it be provided to the Committee staff and it will be 
incorporated as part of the record of this hearing.
    We have regrets from colleagues. Some of our colleagues are 
conducting a field hearing in Las Vegas right now. For some 
reason they had a higher draw. And so their regrets, and they 
look forward to the testimony, the information that's generated 
from this field hearing so that we can, at the Federal level, 
begin to respond much more proactively than we have.
    Let me welcome the first panel and begin with Mr. Frost, 
the Associate Director, Natural Resource Stewardship and 
Science, National Park Service. Good to see you again. I had 
quite a good time in the Grand Canyon the other day, and thank 
you for being here today. I look forward to your testimony.

  STATEMENT OF HERBERT C. FROST, ASSOCIATE DIRECTOR, NATURAL 
    RESOURCE STEWARDSHIP AND SCIENCE, NATIONAL PARK SERVICE

    Mr. Frost. Good morning, Chairman Grijalva. It's good to 
see you again too. I'm glad we all made it down the road 
safely. Thank you again for the opportunity to testify this 
morning. On behalf of the Department of the Interior and the 
challenges followed by an unprecedented spread of invasive 
species on Federal land in the Desert Southwest, the Department 
appreciates the Subcommittee's interest and the support of 
efforts to address the impact of invasive plants on the Sonoran 
Desert.
    Our protected areas are no longer protected. Over thirty-
nine million acres of land managed by the Department of the 
Interior are infested with invasive plants. Preventing the 
introduction of additional invasive species and controlling the 
spread of those already present is one of the most significant 
challenges.
    Invasive species have the ability to displace and imperil 
native species, alter entire ecosystems, damage critical 
infrastructures, impact visitor experience and result in a loss 
of productivity to private landowners.
    Isolation and careful management do not insulate our public 
lands, and recognizing that invasive species cross geographic 
and jurisdictional boundaries, collaborative efforts among 
Federal, State and local entities with landowners are highly 
effective.
    Our testimony today will focus on buffelgrass. Buffelgrass 
is a fire-adaptive perennial bunchgrass introduced from the 
African savanna that grows in dense stands, produces large 
quantities of seeds that readily germinate in both disturbed 
and undisturbed desert sites.
    Scientists have been studying the impact of invasive plants 
on native species and lands throughout the Southwest. 
Researchers have determined that there are increased risks to 
the survival of native species, including the iconic saguaro 
cactus, in desert forests, by exposure to the fires carried by 
non-native grasses.
    Fire is an infrequent occurrence in the Sonoran Desert, 
which is frequently estimated to be greater than 250 years. 
Buffelgrass and other invasive species increase the fine fields 
which carry fire throughout the desert.
    Buffelgrass stands can burn at over 1400 degrees 
Fahrenheit, almost three times hotter than fire generated by 
native vegetation. In addition, buffelgrass reestablishes 
readily with each burn and progressively increases the 
frequency, intensity and extent of wild fires.
    Buffelgrass is impacting public and tribal lands throughout 
this area. In Arizona, currently two national park service 
sites, four refuges and BLM Ironwood Forest National Monument 
are being impacted.
    Because buffelgrass spreads aggressively, we can expect 
several other impacts in the Desert Southwest. In response to 
buffelgrass invasion, land managers, scientists and local 
communities have formed the Southern Arizona buffelgrass 
Coordination Center and the buffelgrass Working Group.
    Over the past decade, control efforts have culminated in 
the treatment of thousands of public lands in rights-of-way in 
2008.
    In the spring of 2009, over 100 volunteers pulled 
buffelgrass in the Tucson Basin in each month and a similar 
volunteer effort is well underway in Phoenix.
    In addition, volunteers in Saguaro National Park 
contributed over 3,000 hours mapping and hand-pulling 
buffelgrass in 2009.
    The Ironwood Forest National Monument local volunteers, 
Friends of the Ironwood Forest and Tucson Weedwackers and other 
groups are conducting regular buffelgrass removal projects.
    The Save the Waterman Project has nearly eradicated 
buffelgrass in the Waterman Mountains. Building on this 
success, BLM is helping in planning for a new Save the 
Silverbell Campaign, which would target buffelgrass in the 
nearby Silverbell Mountains.
    Other collaborative efforts include the Bureau of Indian 
Affairs and tribal partnership that are addressing buffelgrass 
in over three million acres of tribal land; local cooperative 
weed management areas; local weed organizations and 
partnerships between DOI and the U.S. Forest Service on 
management, aerial mapping and research projects.
    The ecological transformation we've experienced in the 
Southwest are also occurring across the border in Mexico. 
Buffelgrass has been widely planted as a pasture grass in 
Mexico, and populations are expanding North across the border.
    In addition, a new variety of buffelgrass that can 
withstand colder temperatures was recently released and planted 
in South Texas and Mexico. This cold tolerant variety has 
adapted to a much wider geographic range and could expand 
buffelgrass populations northward into Arizona and beyond.
    Illegal border activities and associated national security 
measures are resulting in conditions that make control of 
buffelgrass more difficult. And increased border activities 
create ground disturbances and pathways for dispersal of 
buffelgrass along the border.
    Researchers are only beginning to understand the changes in 
the Southwest desert as a result of the invasion. The problem 
of non-native plant invasions and our increased fire frequency 
are interrelated and require innovative research programs 
required for managers.
    Southern Arizona has already organized around this issue 
through cooperative efforts, local business, citizens, 
academia, conservation organizations, fire departments and 
local and state governments. The Department will continue to 
actively participate in all endeavors to help combat this 
problem. Thank you.
    Mr. Grijalva. Thank you, Doctor.
    [The prepared statement of Mr. Frost follows:]

  Statement of Herbert C. Frost, Associate Director, Natural Resource 
Stewardship and Science, National Park Service, U.S. Department of the 
                                Interior

    Chairman Grijalva and members of the subcommittee, thank you for 
this opportunity to testify on behalf of the Department of the Interior 
(Department) on the challenges posed by the unprecedented spread of 
invasive species on federal lands in the desert Southwest. We 
appreciate the subcommittee's interest and support of efforts to 
address the impacts invasive plants are having in the Sonoran desert 
ecosystem.
    My testimony will focus on three main areas: the current threat 
from invasive plants to native ecosystems, the Department's response, 
and how we are addressing the threat posed by buffelgrass through 
cooperation and collaboration with our partners.
Background
    Executive Order 13112 defines an invasive species as ``an alien 
[with respect to the ecosystem under consideration] species whose 
introduction does or is likely to cause economic or environmental harm 
or harm to human health.'' Invasive species proliferation is considered 
one of the greatest threats to our natural and cultural resources, 
food-producing systems, agricultural commodities, and human health. The 
United States is experiencing an increase in the number of invasive 
species crossing our borders through various pathways, and, given the 
global nature of our economy and transportation systems, we expect this 
trend to continue. EO 13112 charged all federal departments and 
agencies to prevent and control invasive species and created the 
National Invasive Species Council (NISC). NISC provides high-level 
interdepartmental coordination of federal invasive species actions. 
NISC is co-chaired by the Secretaries of the Interior, Agriculture, and 
Commerce.
    The introduction and spread of invasive species is fundamentally 
changing our natural and cultural landscapes. Isolation and careful 
management do not insulate our public lands. Collaborative efforts 
among federal, state, and local entities and willing private landowners 
can be highly effective in managing a shared problem when we recognize 
that invasive species cross geographic and jurisdictional boundaries.
    Our protected areas are no longer protected; over 39 million acres 
of land managed by the Department are infested with invasive plant 
species (US Department of the Interior, 2010). Managing invasive 
species is one of our most significant challenges, and preventing the 
introduction of additional invasive species and controlling the spread 
of those already present is an important focus of the Department.
    Buffelgrass (Pennisetum ciliare), is a fire adapted, perennial 
bunchgrass introduced from the African savanna. Buffelgrass grows in 
dense stands, producing large quantities of seed that readily germinate 
and is able to invade both disturbed and undisturbed desert sites. It 
is spreading rapidly across Arizona's deserts, threatening the 
ecological integrity of the Sonoran desert ecosystems and public as 
well as private lands.
    Conversion of the Sonoran Desert into non-native grasslands will 
significantly affect biodiversity, including not just threatened, 
endangered and at-risk plant and animal species, but also iconic 
species including the saguaro cactus. Species dependent on the desert 
community and threatened by buffelgrass invasion include cactus 
ferruginous pygmy-owls, desert tortoises, lesser long-nosed bats, and 
many other species common to desert life. Effects include loss of 
habitat as the desert converts to grassland, the inability to move 
through dense stands of buffelgrass, and the direct effects from fire 
(Rice et al, 2008; Flanders et al, 2006; Esque et al, 2003; Burgess et 
al, 1991; Morales-Romero and Molina-Freaner, 2008; Wilson et al, 1995; 
Williams and Baruch, 2000; Clarke et al, 2005; and Burquez-Montijo et 
al, 2002).
    Unlike some other areas in the U.S., fire is an infrequent 
occurrence in the Sonoran desert, with fire frequencies estimated to be 
greater than 250 years (Humphrey, 1974; McLaughlin and Bowers, 1982; 
Schmid and Rogers, 1988; and Schussman, Enquist, and List, 2006). 
Buffelgrass and other invasive grasses like red brome increase the 
combustible materials or fine fuels, which help carry fires through the 
desert. Buffelgrass stands can burn at over 1,400 degrees--almost three 
times hotter than fires generated by native vegetation. A low intensity 
fire in 1994 in Saguaro National Park killed 11 desert tortoises and 
25% of saguaros (Esque and Schwalbe, 1994-1996); mortality is expected 
to be much greater from fires where buffelgrass is present. In 
addition, buffelgrass reestablishes readily with each burn at the 
expense of less-fire adapted native species, inducing a grass-fire 
cycle that progressively increases the frequency, intensity and extent 
of wildfires (Cardille et al, 2001; D'Antonio et al, 1992; Thomas, 
1991; Esque et al, 2007; and Burquez-Montijo et al, 2002).
    Climate induced changes in temperature and precipitation patterns 
will further stress native communities and will likely increase natural 
disturbances, such as drought, flooding, fire and temperature extremes. 
These disturbances can weaken the ability of native ecosystems to 
compete with invaders. We are already beginning to see some of these 
changes in the southwest, where buffelgrass has been able to respond 
more quickly to recent variations in climate (Ward, Smith, and 
McClaran, 2006).
Buffelgrass Impacts and Management Response on Lands Managed by the 
        Department of the Interior
National Park Service (NPS)
    Buffelgrass is impacting most parks in the southwest, but effects 
are the most pronounced at Organ Pipe Cactus National Monument (Organ 
Pipe) and Saguaro National Park (Saguaro) in Arizona. It was first 
detected at Organ Pipe in the mid 1980s, but was initially dismissed by 
southern Arizona land managers as primarily a roadside weed, not well 
adapted to expanding to the native desert environment. In the early 
1990s, an active management program based on manual removal was 
launched in response to the rapidly expanding buffelgrass population. 
Despite early success, the populations continued to expand along with 
other invasive grasses. It is now viewed as one of the most serious 
threats to natural and cultural resources in the park.
    Buffelgrass was first observed at Saguaro National Park in 1989, 
and NPS land managers estimate that buffelgrass populations are 
doubling in size every two years. Inventories between 2002 and 2004 
indicated that buffelgrass covered 175 acres of the park and was 
expanding. Buffelgrass is now found on 2,000 acres of park land (or 
2%), and current estimates have buffelgrass increasing in area by 35 % 
per year and potentially covering 60 % of the park's desert habitat by 
2020.
    In response, the park developed an aggressive management control 
program, by using a combination of manual and chemical methods. In 
2009, these treatments included 3000 hours contributed by local 
community volunteers. The park has also joined with the local 
communities, the University of Arizona, the Forest Service and BLM in 
investigating aerial and other state-of-the-art application methods.
US Fish and Wildlife Service (FWS)
    Buffelgrass is an existing and potentially widespread threat to FWS 
refuges in Southern Arizona and beyond. The introduction of a cold-
adapted variety in Texas and Mexico is expected to begin to impact 
desert grasslands and woodlands upslope and in higher latitudes, and 
climate change may exacerbate this spread. Specific threats include the 
saguaro cacti, the iconic symbol of the Sonoran Desert landscape and 
the Arizona tourist industry. Imminently threatened are the Sonoran 
Desert and desert grassland refuges in Arizona and New Mexico including 
the Cabeza Prieta, Kofa, Leslie Canyon, San Bernardino, San Andres 
National Wildlife Refuges and refuges and protected areas throughout 
the borderlands region into south Texas. The Service has responded to 
this threat on many levels through increased interagency and partner 
coordination, monitoring for early detection, integrated buffelgrass 
control measures (e.g., herbicide, mechanical and manual removal), and 
through buffelgrass Burned Area Rehabilitation projects to restore 
sustainable native habitats. Effective control continues to be a 
challenge due to the abundance of buffelgrass seed sources that invade 
from adjacent lands and Mexico.
Bureau of Land Management (BLM)
    The BLM is working to control infestations of buffelgrass which 
occur on an estimated 14,750 acres within the Tucson Field Office. Most 
of this is on the Ironwood Forest National Monument. The need to 
control and manage these existing infestations is part of the BLM's 
early detection and rapid response program, which is coupled with 
control and management of the species. To do so, the BLM applies an 
integrated pest management approach using various treatment methods 
such as manual, mechanical, and chemical control methods. Even more 
importantly, prevention is of the highest priority to ensure that 
infestations of buffelgrass and other weed species are not introduced 
or spread into other fragile parts of the Sonoran Desert and north and 
west into the Mohave Deserts. Control of buffelgrass is important to 
prevent its movement to the north and west where the BLM is trying to 
control and manage other invasive annual grasses that have become 
detrimental to the Mohave Desert and the Great Basin.
    On Ironwood Forest National Monument, the BLM, along with local 
volunteers, Friends of the Ironwood Forest, Sonoran Desert Weed 
Whackers and other groups conduct regular buffelgrass removal projects. 
For example, The Waterman Mountains, which contain rare and unique 
vegetative communities, have been the target of the ``Save the 
Watermans'' project. This project has nearly eradicated buffelgrass 
from the Waterman Mountains following a concerted three-year effort 
which is aimed at completely controlling the species in this area by 
the end of 2010. In recognition of the remarkable success of the 
project, and their unrelenting efforts, John Scheuring and the Friends 
of the Ironwood Forest have been selected to receive the BLM's 2010 
``Making a Difference'' National volunteer award.
    Building on the ``Save the Watermans'' success, the BLM and its 
partners have now begun planning for a new ``Save the Silverbells'' 
campaign, which will target buffelgrass in the nearby Silverbell 
Mountains, also located on the Ironwood Forest National Monument. The 
BLM will treat 285 acres of buffelgrass on the Monument in 2010. This 
is a combination of first-year, second-year and third-year treatments. 
Forty of the 285 acres of buffelgrass eradication treatment planned for 
2010 will be a third year treatment, and we expect to have buffelgrass 
completely eradicated from this 40 acres by the end of 2010.
Bureau of Indian Affairs (BIA)
    The Bureau of Indian Affairs, along with Arizona tribes, has the 
responsibility for managing invasive species on over 3 million acres 
within the Sonoran Desert region. In addition to the Tohono O'Odham 
Nation, consisting of 2,789,047 acres, there are five urban tribes with 
a land base of about 350,000 acres susceptible to buffelgrass invasions 
within the vicinity of Phoenix. The Sonoran Desert Museum 2006 
Buffelgrass Survey Report stated that distribution of buffelgrass is 
along all major highway routes including Interstate 10 west of Phoenix 
to the California border. It is present north and east of Phoenix near 
several Indian reservations (Van Devender, Thomas, and Dimmitt, 2006). 
Since 2006, the spread of buffelgrass has increased and weed 
specialists are concerned. Recent rains in Phoenix have turned vacant 
lots and disturbed areas into carpets of buffelgrass (Morrison, 2010).
    Foresters and range specialists align the buffelgrass invasion with 
the cheatgrass problem on tribal and public lands. Both are extreme 
fire hazards, disturb the natural ecosystem and are serious problems 
within the wildland/urban interface.
United States Geological Survey (USGS)
    USGS scientists have been studying the impacts of invasive plants 
to native species and lands in the Southwest desert. In collaboration 
with the National Park Service and Bureau of Land Management, USGS 
researchers have determined that there are increased risks to the 
survival of saguaros and tortoises by exposure to the more frequent 
fires caused by nonnative grasses. Fires are a rare occurrence in the 
saguaro-palo verde plant communities that characterize this desert and 
losses are considered to be catastrophic among long-lived species 
(Esque and Schwalbe, 1994-1996; Esque and others, 2007). Researchers 
are only beginning to understand the changes in Southwestern deserts 
that result from these plant invasions and fires. The problems of 
nonnative plant invasions, increased fire frequency, and restoration 
are interrelated and require an integrated research program to gain 
valuable information for managers. In addition to fire related impacts, 
researchers are also studying the seedbank characteristics of 
buffelgrass and native plant species to assist in restoration efforts 
following successful buffelgrass control efforts.
Interagency Cooperation
    The growing concern for buffelgrass invasions has galvanized area 
land managers, scientists and local communities into action, forming 
the Southern Arizona Buffelgrass Coordination Center and Buffelgrass 
Working group. On February 9, 2007, more than 120 representatives from 
state and federal agencies (including NPS, FWS, BLM, USGS and USDA-
Forest Service), county and municipal governments, academia and private 
conservation organization from across southern Arizona joined concerned 
citizens at the first Buffelgrass Summit. Together we developed and are 
implementing a 5-year Southern Arizona Buffelgrass Strategic Plan for 
regional buffelgrass control that includes identification of 
buffelgrass sites using GPS mapping for purposes of monitoring, 
control, management, and eradication. In addition, the Invasive Species 
Advisory Committee (ISAC) which is the Federal Advisory Committee Act 
chartered group of nonfederal stakeholders that advise NISC, met in 
Tucson, AZ in May of 2009. This group toured buffelgrass areas and had 
extensive discussion of this issue within the larger context of 
invasive plants contributing to the frequency and severity of 
wildfires.
    In 2005, Arizona declared buffelgrass a noxious weed. Local 
governments followed with ordinances to encourage utilities, 
developers, and private landowners to control buffelgrass on their 
properties and right-of-ways. Both the public and private sectors are 
quickly ramping up to meet the buffelgrass challenge, and, over the 
past decade, control efforts have accelerated, culminating in treatment 
of thousands of acres on public lands and right-of-ways in 2008. In 
spring 2009, over 100 volunteers pulled buffelgrass in the Tucson Basin 
each month, and a similar volunteer effort is well under way in 
Phoenix.
    The non-profit Southern Arizona Buffelgrass Coordination Center was 
established in November 2008 to educate the public about buffelgrass 
infestation and eradication. Other collaborative efforts include local 
Cooperative Weed Management areas, local weed management organizations, 
Bureau of Indian Affairs and tribal partnerships, and partnerships 
between DOI and the U.S. Forest Service on management, aerial mapping 
and research projects.
Ongoing Challenges
    The ecological transformations we are experiencing in the southwest 
are also occurring across the border in Mexico. Buffelgrass has been 
widely planted as pasture grass in Mexico and populations are expanding 
north across the border. In addition, a new variety of buffelgrass 
(Frio) that can withstand colder temperatures was jointly released and 
planted in South Texas and Mexico. This cold tolerant variety is 
adapted to a much wider geographic area and could expand invasive 
buffelgrass populations northward into northern Arizona and beyond 
(Hussey and Burson, 2005).
    Illegal border activity and associated national security measures 
have resulted in conditions that make control of buffelgrass more 
difficult. Movement of goods and people and increased border activity 
creates ground disturbances and pathways for dispersal of buffelgrass 
and other invasive species along the border, and increasing security 
concerns make it difficult for land managers to detect and control 
border buffelgrass populations. Finally, even if we can eradicate the 
invasive plant species from an area, the damage they cause together 
with the extremely arid environment makes restoring native species very 
difficult.
Conclusion
    While this hearing is focused on buffelgrass we must consider the 
many invasive species that threaten desert ecosystems in the southwest. 
Species such as red brome, schismus, fountain grass, and Sahara mustard 
threaten upland sites, while other species are impacting riparian areas 
along rivers and streams. More than 100 non-native species have been 
recorded in parks in the southwest and more than 10% of the flora is 
not native to the parks. The explosion of buffelgrass and these other 
invasive species is a major concern to land managers in the Sonoran 
desert ecosystem.
    There are current and developing tools that will allow us to 
address this growing problem, but only with a sustained and increased 
commitment to the problem. All solutions must be based on a coordinated 
landscape approach that includes all the land owners and jurisdictions 
in the area. The approach must include all invasive species and look 
past control to restoration of sustainable native plant communities. 
Southern Arizona has already organized around the issue through 
cooperative efforts involving local businesses, citizens, academia, 
conservation organizations, fire departments, and local, state and 
federal governments. The Department will continue to actively 
participate in this regional effort.
    Thank you for the opportunity to testify and I welcome any 
questions you or the subcommittee members may have.
References
Burgess, T.L., J.E. Bowers, and R.M. Turner. 1991. Exotic plants at the 
desert laboratory, Tucson, Arizona. Madrono 38:96-114.

Burquez-Montijo, A., M.E. Miller, and A. Martinez-Yrizar. 2002. Mexican 
grasslands, thornscrub, and transformation of the Sonoran Desert by 
invasive exotic buffelgrass (Pennisetum ciliare). Pages 126-146 In 
Tellman, B., editor, Invasive exotic species in the Sonoran Region. 
University of Arizona Press and The Arizona-Sonora Desert Museum, 
Tucson, AZ.

Cardille, J.A., S.J. Ventura, and M.G. Turner. 2001. Environmental and 
social factors influencing wildfires in the Upper Midwest, United 
States, Ecological Applications 11:111-127.

Clarke, P.J., P.K. Latz, and D.E. Albrecht. 2005. Long-term changes in 
semi-arid vegetation: invasion of an exotic perennial grass has larger 
effects than rainfall variability. Journal of Vegetation Science 
16:237-248.

D'Antonio, C.M. and P.M. Vitousek. 1992. Biological invasions by exotic 
grasses, the grass/fire cycle, and global change. Annual Review of 
Ecology and Systematics 23:63-87

Esque,T and C. R. Schwalbe. 1994-1996. Effects of the Mother's Day Fire 
on Saguaros and Tortoises. Park records and personal communication.

Esque, T.C., C.R. Schwalbe, L.A. DeFalco, R.B. Duncan, and T.J. Hughes. 
2003. Effects of desert wildfires on desert tortoise (Gopherus 
agassizii) and other small vertebrates. Southwestern Naturalist 48:103-
111.

Esque, T., C. Schwalbe, J.A. Lissow, D.F. Haines, D. Foster, and 
M.C.Garnett. 2007. Buffelgrass fuel loads in Saguaro National Park, 
Arizona, increase fire danger and threaten native species. Park Science 
24:33-56.

Esque, T.C., C.R. Schwalbe, D.F. Haines, and W.L. Halvorson. 2004. 
Saguaros under siege: invasive species and fire. Desert Plants 20:49-
55.

Flanders, A.A., W.P. Kuvlesky, Jr., D.C. Ruthven III, R.E. Zaiglin, 
R.L. Bingham, T.E. Fulbright, F. Hernandez, and L.A. Brennan. 2006. 
Effects of invasive exotic grasses on South Texas rangeland breeding 
birds. The Auk 123:171-182.

Humphrey, R.R. 1974. Fire in the deserts and desert grassland of North 
America. Pages 366-400, in Fire and Ecosystems (eds. T.T. Kozlowski and 
C.E. Ahlgren). Academic Press, New York.

Hussey, M.A. and B.L. Burson. 2005. Registration of ``Frio'' 
Buffelgrass. Crop Science 45:411-412. http://crop.scijournals.org/cgi/
content/short/45/1/411.

McLaughlin, S.P. and J.E. Bowers. 1982. Effects of wildfire on a 
Sonoran Desert plant community. Ecology 63:246-248.

Morales-Romero, D. and F. Molina-Freaner. 2008. Influence of 
buffelgrass pasture conversion on the regeneration and reproduction of 
the columnar cactus, Pachycereus pectin-aboriginum, in northwestern 
Mexico. Journal of Arid Environments 72:228-237.

Morrison, Kara G., Arizona Republic, ``Weeds in Full Bloom Thanks to 
Rainy Weather'' March 13th, 2010.

Rice, P.M., G.R. McPherson, and L.J. Rew. 2008. Fire and nonnative 
invasive plants in the Interior West Bioregion. Pages 141-173 In 
Zouhar, K., J.K. Smith, S. Sutherland, and M.L. Brooks. Wildland fire 
in ecosystems: fire and nonnative invasive plants. Gen. Tech. Rep. 
RMRS-GTR-42-vol. 6. USDA, Forest Service, Rocky Mt. Res. Sta., Ogden, 
UT.

Schmid, M.K. and G.F. Rogers. 1988. Trends in fire occurrence in the 
Arizona Upland subdivision of the Sonoran Desert, 1955 to 1983. 
Southwestern Naturalist 33:437-444.

Schussman, H., C. Enquist, and M. List. 2006. Historic fire return 
intervals for Arizona and New Mexico: a regional perspective for 
southwestern land managers. The Nature Conservancy in Arizona. http://
azconservation.org/downloads/data/historical--fire--return--intervals--
for--arizona--and--new--mexico

Thomas, P.A.. 1991. Response of succulents to fire: a review. 
International Journal of Wildland Fire 1:1-22.

US Department of the Interior. 2010. Annual Performance Report, FY 
2009.

Van Devender, R. Thomas, and Mark A. Dimmitt. Arizona-Sonora Desert 
Museum, Final Report on ``Conservation of Arizona Upland Sonoran Desert 
Habitat. Status and Threats of Buffelgrass (Pennisetum ciliare) in 
Arizona and Sonora. May 2006.

Ward, J.R., S.E. Smith, and M.P. McClaran. 2006. Water requirements for 
the emergence of buffelgrass (Pennisetum ciliare). Weed Science. 
54(4):720-725.

Williams, D.G., and Z. Baruch. 2000. African grass invasion in the 
Americas: ecosystem consequences and the role of ecophysiology. 
Biological Invasions 2:123-140.

Wilson, R.C., M.G. Narog, A.L. Koonce, and B.M. Corcoran. 1995. 
Postfire regeneration in Arizona's giant saguaro shrub community. Pages 
424-431 in L.F. DeBano, G.J. Gottfried, R.H. Hamre, C.B. Edminster, 
P.F. Ffolliott, and A. Ortega-Rubio, Technical Coordinators. 
Proceedings of biodiversity and management of the Madrean Archipelago. 
USDA Forest Service, Rocky Mountain Forest and Range Experiment 
Station, Fort Collins, CO. General Technical Report RM-GTR-264.
                                 ______
                                 
    Mr. Grijalva. Let me now ask Ms. Faye Krueger, Deputy 
Regional Forester, Southwest Region, U.S. Forest Service. 
Welcome again and thank you.

     STATEMENT OF FAYE KRUEGER, DEPUTY REGIONAL FORESTER, 
            SOUTHWESTERN REGION, U.S. FOREST SERVICE

    Ms. Krueger. Good morning, Chairman Grijalva. Thank you 
again for this opportunity to appear before you and provide the 
Department's perspective on losing ground to the war on 
buffelgrass in the Sonoran Desert.
    At the Forest Service, we are also very concerned about 
invasion of noxious weeds on National Forest Service land.
    Buffelgrass is an invasive grass species from Africa that 
was first introduced into the United States, in the 1930s, as 
livestock forage and for soil stabilization purposes, where it 
was often planted on hillsides.
    It often competes with native vegetation using water, 
nutrients, sunlight, and it forms dense stands that allow fire 
to spread across the landscape.
    In the Sonoran Desert, the saguaro cactus are fire 
intolerant. Almost all our native communities can be destroyed 
by a single buffelgrass fire. Buffelgrass is a fire-adaptive 
species that reestablishes in these burned areas and 
effectively becomes a dominant species.
    Comprehensive research to evaluate effective combinations 
of mechanical and herbicide treatment is needed; also re-
evaluation of the feasibility of biological control, such as 
insects or fungi, that could depress or slow the spread of 
buffelgrass.
    Both the Coronado National Forest and the Santa Catalina 
Ranger District have been affected by buffelgrass. The Santa 
Catalina Ranger District, on the Coronado National Forest, is 
seeing about three thousand areas along the southwestern 
foothills of the Santa Catalina mountains.
    Also new stands of buffelgrass are being established, 
within the forest, through transportation of seeds by vehicles, 
humans, human activities and animals.
    On the Nogales Ranger District, in southernmost Arizona, 
isolated populations of buffelgrass have been introduced by 
activities between Mexico and the U.S. Border.
    The Santa Catalina Ranger District has a hefty volunteer 
program for treatment of buffelgrass. They also have been 
working with the Arizona State Department of Forests to treat 
buffelgrass at new elevations along the Mt. Lemmon Highway.
    Coronado National Forest employees were involved in the 
formation of the Buffelgrass Working Group, which developed the 
Southern Arizona Buffelgrass Strategic Plan, which turned into 
the Southern Arizona Buffelgrass Coordination Center, and we 
are active participants.
    Buffelgrass is also found on the Tonto National Forest in 
central Arizona. The noxious weed coordinator on the Tonto 
National Forest devotes nearly half of her time to buffelgrass 
control with help from volunteers.
    Buffelgrass is now common throughout the greater Phoenix 
area, and buffelgrass moved onto the Tonto National Forest from 
the interstate highway as well as other highways.
    The Forest Service is working closely with the Arizona 
Department of Transportation to control infestations that will 
occur around the highway during construction projects.
    The Forest Service is currently working with several multi-
agency projects at the regional level. We worked with the 
National Park Service and did aerial surveys to map locations 
of buffelgrass infestations on public lands.
    The Forest Service recently provided funding to investigate 
the effectiveness of several herbicides on buffelgrass, in 
conjunction with the University of Arizona.
    The Forest Service is also part of a multi-project 
feasibility test to use helicopters in the Sonoran Desert. It's 
about a 12-acre area in Pima County that we're working to put 
herbicide application on to understand the rates needed to 
control buffelgrass and minimize damage to the native 
vegetation.
    Mr. Chairman, this concludes my prepared statement. I will 
be pleased to answer any questions you might have.
    Mr. Grijalva. Thank you very much.
    [The prepared statement of Ms. Krueger follows:]

   Statement of Faye Krueger, Deputy Regional Forester, Southwestern 
      Region, U.S. Forest Service, U.S. Department of Agriculture

    Chairman Grijalva, Ranking Member Bishop and members of the 
subcommittee, thank you for the opportunity to appear today to provide 
the Department's perspective on ``Losing Ground: The War on Buffelgrass 
in the Sonoran Desert.''
    At the Forest Service, we are very concerned about the aggressive 
and persistent nature of invasive and noxious species colonizing 
National Forest System lands. We view the establishment of buffelgrass 
stands on National Forest System lands in Arizona as a direct conflict 
with the Forest Service mission ``to sustain the health, diversity and 
productivity of the Nation's forests and grasslands to meet the needs 
of present and future generations''. Indeed, the establishment of 
buffelgrass stands in the Sonoran Desert ecosystem has become a direct 
threat to the iconic saguaro cactus, one of the defining plants of the 
Sonoran Desert and a grand symbol of the American West.
    Buffelgrass (Pennisetum ciliare) is an invasive grass species from 
Africa that threatens broad areas of the Sonoran Desert ecosystem 
through its expansion into southern Arizona and the State of Sonora in 
Mexico. Buffelgrass was first introduced into the United States in the 
1930s as livestock forage and for soil stabilization purposes. 
Buffelgrass has invaded roadsides and other disturbed areas, and it 
also occupies relatively steep hillsides of the desert landscape. The 
threat from buffelgrass comes from its ability to outcompete native 
vegetation for water, nutrients, and sunlight, and its formation of 
dense buffelgrass stands that allow fires to spread over the landscape. 
The Sonoran Desert evolved without fire and most of its native plants 
such as the saguaro cactus (Carnegiea gigantea) are fire intolerant. 
Nearly all of a native plant community can be destroyed by a single 
buffelgrass fire. Since buffelgrass is fire adapted, it reestablishes 
in these burned areas and effectively becomes the dominant species. 
There is a concern that a cold-tolerant buffelgrass cultivar newly 
developed and recently released for use for forage will allow the 
invasive species to grow at higher elevations and extend its range 
further northward thereby increasing the potential for buffelgrass 
invasion and ecosystem degradation.
    Although buffelgrass is possibly the greatest current threat to the 
Sonoran Desert ecosystem, it is only one of a number of invasive 
species that can impact the desert. Invasive species such as the cactus 
moth (Cactoblastis cactorum), sweet resinbush (Euryops subcarnosus), 
and fountain grass (Pennisetum setaceum) also threaten the Sonoran 
Desert. Red brome (Bromus rubens) is another invasive grass that has 
converted large areas of native desert vegetation on alluvial fans or 
outwash plains locally known as bajadas in the upper Sonoran Desert 
through the introduction of a fire cycle.
    Complete eradication of buffelgrass in the Sonoran Desert is no 
longer feasible due to the extensive spread of buffelgrass over the 
landscape. There is still a lack of knowledge on cost effective 
techniques to control buffelgrass over a broad-scale desert environment 
as outlined in USDA's principles for integrated pest management. A 
particular need is for comprehensive research to evaluate effective 
combinations of mechanical and herbicide treatments that will control 
buffelgrass in desert conditions. Although small scale efforts 
involving volunteers have been successful in reducing localized 
buffelgrass populations on a short-term basis, there is less 
understanding of the costs and effectiveness of treatment options that 
could be accomplished on a larger scale. In the long term, there is a 
need to evaluate the feasibility of biological controls, such as 
insects or fungi, which would suppress or slow the spread of 
buffelgrass within the Sonoran Desert ecosystem. The Forest Service's 
Research and Development branch could play a role in developing these 
technologies.
    Both the Coronado National Forest and the Tonto National Forest 
have been infested by buffelgrass. In particular, the Santa Catalina 
Ranger District on the Coronado National Forest is heavily infested 
with about 3,000 acres of relatively dense buffelgrass along the 
southwestern foothills of the Santa Catalina Mountains near Tucson. 
These foothills have patches of buffelgrass of about two acres in size 
that serve as a highly flammable fuel that threatens populations of the 
unique saguaro cactus within the Pusch Ridge Wilderness and homes in 
the wildland-urban interface bordering the Forest. New stands of 
buffelgrass are being established within the Forest through 
transportation of seed by vehicles, wind, and animals. The Nogales 
Ranger District (Coronado National Forest) in southernmost Arizona has 
isolated populations of buffelgrass that have been introduced in part 
by extensive human activities along the U.S.-Mexico border. As a 
consequence of buffelgrass seed being transported by these various 
mechanisms, existing populations of buffelgrass on the Forest are 
expected to continue to spread. Once treated buffelgrass stands need to 
be monitored and re-treated as necessary for several years.
    Since buffelgrass was first detected on the Santa Catalina Ranger 
District near Tucson in 1969, the Coronado National Forest has 
conducted activities to control it including one-time events for 
community service by local service organizations such as Eagle Scouts 
and schools. The Forest sponsors ongoing annual events such as ``Beat 
Back Buffelgrass Day'' and ``National Public Lands Day.'' Community 
interest and involvement have been high and targets for buffelgrass 
removal have been exceeded each year. The Forest also uses crews from 
the Arizona State Department of Forestry to grub buffelgrass at mid-
elevations along the Mount Lemmon Highway to minimize a fire hazard 
along the road. Follow-up treatment must be done periodically to keep 
the highway free of buffelgrass.
    Along with other concerned organizations, the Coronado National 
Forest participated in the Buffelgrass Summit that was held in Tucson 
in February, 2007. Forest personnel were also involved in the formation 
of a Buffelgrass Working Group and subsequent development of the 
Southern Arizona Buffelgrass Strategic Plan. This plan led to the 
establishment of the Southern Arizona Buffelgrass Coordination Center 
(SABCC). The purpose of the SABCC is to serve as a regional information 
center on buffelgrass that emphasizes an integrated management approach 
to control this invasive species. The center is supported by 
organizations and agencies concerned with buffelgrass management in 
southern Arizona including the Forest Service.
    Buffelgrass is also found on the Tonto National Forest in central 
Arizona with infestations occurring on four of its six Ranger 
Districts. Most infestations on the Forest have not been mapped, but 
buffelgrass plants are scattered over thousands of acres on the Forest. 
If left untreated, these small infestations are expected to become 
denser over time and cause problems similar to other areas with heavy 
buffelgrass populations such as the Santa Catalina District of the 
Coronado National Forest. Control is time consuming and expensive. The 
noxious weed coordinator of the Tonto National Forest devotes at least 
half of her time to buffelgrass control together with help from 
volunteers. However, new infestations are occurring in remote areas on 
the Tonto National Forest at such a rate that mapping or controlling 
the spread is not feasible at this time.
    Buffelgrass is now common throughout the greater Phoenix and Tucson 
metroplex, and the urban ecosystem can serve as a major source of seed. 
This invasive grass grows along urban, suburban and rural streets and 
roads and populates parks, yards of residences and industrial areas, 
which are sometimes not in the forefront of control efforts. The 
Arizona Legislature has enacted a series of statutes to address, 
prohibit and control the impact of all invasive and noxious species in 
Arizona and has identified the Arizona Department of Agriculture and 
the Arizona Department of Transportation as leads for prohibition, 
eradication and control.
    In general, people within the metro area are unaware of the 
potential for buffelgrass to impact wildland areas. Although a 
volunteer organization (the Phoenix Weedwackers) does exist to remove 
buffelgrass in mountain preserves of Phoenix, the city itself does not 
currently have a specific program for buffelgrass control. Northward-
bound traffic from the city continuously brings buffelgrass seed onto 
the Tonto National Forest. Buffelgrass has moved onto the Forest from 
access roads originating from Interstate Highway 17 and from highway 
road corridors that cross the Forest including U.S. 60 and State 
Highways 87, 88, and 188. The Forest is working closely with the 
Arizona Department of Transportation to control new infestations that 
occur along the highways during construction projects.
    The Forest Service is committed to working with agencies, 
educational institutions, community service organizations, local fire 
departments, and other entities in preventing and controlling 
buffelgrass. This includes coordinating with the Southern Arizona 
Buffelgrass Coordination Center on a wide array of projects and 
activities. The Forest Service is currently involved with several 
multiagency projects at a regional level to increase knowledge of 
buffelgrass expansion and management. In November 2008, the Forest 
Service and National Park Service jointly conducted an aerial survey of 
the Coronado National Forest and Saguaro National Park to map 
buffelgrass infestations on these public lands. The Forest Service 
recently provided FY 2010 funding to the University of Arizona to 
investigate the effectiveness of several herbicides on buffelgrass 
under the (U.S. Forest Service) State and Private Forestry--Forest 
Service Pesticide Impact Analysis Program (FSPIAP). The Forest Service 
is also part of a multiagency project to test the feasibility of using 
helicopters in the Sonoran Desert to apply glyphosate herbicide at 
application rates that can control buffelgrass while minimizing damage 
to native vegetation. The project is based on the need to develop a 
technology that can handle buffelgrass infestations in remote, 
inaccessible areas or areas with steep, rocky terrain that do not allow 
control by manual methods or ground application of herbicide. Testing 
with the herbicide by helicopter application will be conducted on 12 
acres of public land owned by Pima County during the summer of 2010. 
The project is jointly sponsored by Pima County, City of Tucson, Forest 
Service, National Park Service, Bureau of Land Management, and the 
University of Arizona.
    The Forest Service has an active and vibrant program to address 
invasive species on National Forest System lands and to assist in 
partnerships for all lands. We are committed to work to restore and 
maintain forest ecosystem health using the best available science and 
technologies to accomplish this goal of the Secretary. Mr. Chairman, 
Ranking Member Bishop, this concludes my prepared statement. I am 
pleased to answer any questions you may have.
                                 ______
                                 
    Mr. Grijalva. Let me now ask Dr. Ned Norris, Junior, 
Chairman of the Tohono O'odham Nation. Welcome, Mr. Chairman, 
and I look forward to your comments.

          STATEMENT OF DR. NED NORRIS, JR., CHAIRMAN, 
             TOHONO O'ODHAM NATION, SELLS, ARIZONA

    Dr. Norris. Thank you, Mr. Chairman, and members of the 
Committee. It's always good to see you, Congressman Grijalva, 
and thank you for your continued leadership.
    Today the Subcommittee on National Parks, Forests and 
Public Lands invited me to testify about the invasion of 
buffelgrass on the Tohono O'odham Nation. The Tohono O'odham 
Nation is a Federally recognized tribe located in the 
southwestern part of the State of Arizona.
    Buffelgrass was introduced to the Nation in the 1980s for 
cattle forage and erosion control. Since then, buffelgrass has 
spread and established itself over a large portion of the 
Tohono O'odham Nation.
    The buffelgrass problem, on the Nation, is being compounded 
by an increasing number of wildland fires. In the past five 
years, the Nation has experienced more frequent wildland fires, 
which are partially fueled by buffelgrass. Unfortunately these 
fires have largely occurred in the biologically diverse 
mountain ranges of the nation.
    These fires set the stage for further buffelgrass 
establishment in our most important land. For example the Green 
fire, in November of 2009, consumed 5,700 acres of Tohono 
O'odham Nation land, Arizona State Land and Bureau of Land 
Management Federal land in the Baboquivari Mountains. It is 
estimated that 8 to 10 percent of the fuel for that fire was 
from buffelgrass.
    The Baboquivari Mountains are culturally important to the 
O'odham, and this fire will open the door for further 
buffelgrass invasion on these mountains.
    Additionally the San Juan fire, in July of 2009, consumed 
9,000 acres of Tohono O'odham Nation land and set the stage for 
buffelgrass establishment farther up-slope on the Quinlan 
Mountains, which are adjacent to the Baboquivari Range.
    Buffelgrass threatens the landscape that forms O'odham 
culture and puts at risk species such as saguaro, bear grass 
and the Sonoran Desert Tortoise.
    Cultural sites are also at risk due to buffelgrass 
establishment. The O'odham use saguaro and bear grass for 
cultural purposes, and the threat that buffelgrass poses, of 
turning the Sonoran Desert into a flammable Africanized 
grassland, threatens the Tohono O'odham way of life.
    Although the true extent of buffelgrass on the Nation is 
not currently known, we are currently working with the Southern 
Arizona buffelgrass Coordination Center to map the extent of 
the invasion. This will help us to prioritize areas in need of 
treatment.
    However the Nation needs funding in order to treat the 
prioritized areas. The Tohono O'odham Nation has hosted local 
buffelgrass removal events; however, the Federal government 
needs to reach out to a wider range of government groups and 
institutions in order to mitigate the spread of buffelgrass in 
Southern Arizona.
    Buffelgrass needs to be treated on surrounding Federal 
lands and funds need to be provided to help local governments 
fight buffelgrass invasion. We must mitigate the buffelgrass 
problem to ensure the O'odham way of life for generations to 
come.
    In conclusion, Mr. Chairman, members of the Committee, we 
ask the Committee to consider assisting Southern Arizona in its 
fight against buffelgrass, to preserve the Sonoran Desert for 
future generations.
    Mr. Grijalva. Thank you, Mr. Chairman.
    [The prepared statement of Dr. Norris follows:]

   Statement of Dr. Ned Norris, Jr., Chairman, Tohono O'odham Nation

    Good morning, my name is Dr. Ned Norris, Jr. and I am the Chairman 
of the Tohono O'odham Nation. Today, the Subcommittee on National 
Parks, Forests and Public Lands has invited me to testify about the 
invasion of buffelgrass on the Tohono O'odham Nation. The Tohono 
O'odham Nation is a federally recognized tribe located in southwestern 
Arizona.
    Buffelgrass was introduced to the Nation in the 1980s for cattle 
forage and erosion control. Since then, buffelgrass has spread and 
established itself over a large portion of the Nation.
    The buffelgrass problem on the Nation is being compounded by an 
increasing number of wildland fires. In the past five years, the Nation 
has experienced more frequent wildland fires, which are partially 
fueled by buffelgrass. Unfortunately, these fires have largely hit the 
biologically diverse mountain ranges of the Nation. These fires set the 
stage for further buffelgrass establishment in our most important 
lands.
    For example, the Three Peaks Fire in November, 2009, consumed 5,700 
acres of Tohono O'odham Nation land, Arizona state land, and Bureau of 
Land Management federal land in the Baboquivari Mountains. It is 
estimated that 8-10% of the fuel for that fire was from buffelgrass. 
The Baboquivari mountains are culturally important to the O'odham and 
this fire will open the door for further buffelgrass invasion on these 
mountains. Additionally, the San Juan Fire in July, 2009, consumed 
9,000 acres of Tohono O'odham Nation land and set the stage for 
buffelgrass establishment further upslope on the Quinlan Mountains, 
which are adjacent to the Baboquivari range.
    Buffelgrass threatens the landscape that forms O'odham culture and 
puts at risk species such as saguaro, beargrass, and the Sonoran Desert 
Tortoise. Cultural sites are also at risk due to buffelgrass 
establishment. The O'odham use saguaro and beargrass for cultural 
purposes and the threat that buffelgrass poses--to turn the Sonoran 
desert into a flammable, Africanized grassland--threatens the O'odham 
way of life.
    Although the true extent of buffelgrass on the Nation is not 
currently known, we are currently working with the Southern Arizona 
Buffelgrass Coordination Center to map the extent of invasion. This 
will help us to prioritize areas in need of treatment. However, the 
Nation needs funding in order to treat the prioritized areas. The 
Tohono O'odham Nation has hosted local buffelgrass removal events. 
However, the federal government needs to reach out to a wider range of 
governments, groups and institutions in order to mitigate the spread of 
buffelgrass in southern Arizona. Buffelgrass needs to be treated on 
surrounding federal lands and funds need to be provided to help local 
governments fight buffelgrass invasion. We must mitigate the 
buffelgrass problem, to ensure the O'odham way of life for generations 
to come.
    In conclusion, we ask the Committee to consider assisting southern 
Arizona in its fight against buffelgrass, to preserve the Sonoran 
desert for future generations.
                                 ______
                                 
    Mr. Grijalva. Let me begin with some questions, Dr. Frost--
and if some of your colleagues from BLM, Fish and Wildlife want 
to participate in the response to any of these questions, feel 
free to comment, and just identify yourself for the record and 
we can go from there.
    Mr. Frost, can you tell us what some of the primary 
obstacles are to effectively combating buffelgrass invasion? 
For instance, is it a funding issue? Is it a coordination 
issue? And if so, what are those risks and challenges because, 
despite all of the integrative efforts, the weed still appears 
to be winning.
    And you can correct that comment, if I'm wrong, but what 
are the challenges? Is it a funding resource capacity or is it 
a coordination capacity between agencies, other interested 
jurisdictions and groups?
    Mr. Frost. I believe a little of both of those. I mean 
obviously resources, additional resources can greatly enhance 
the ability for the Department's bureaus to address these 
issues.
    It's very labor-intensive to get into some of these areas 
because of the remoteness of some of the sites, the safety 
issues associated with getting into those places and doing the 
type of work that needs to be done.
    You know I would argue it doesn't matter how much we 
coordinate, we can always coordinate better. I've worked on a 
number of interagency issues, and it always seems like, when we 
do coordinate, obviously we're going to get a lot more done. I 
think we can always better coordinate.
    It's even more important out there because it's not just 
between the bureaus within the Department of the Interior, but 
our friends with the Forest Service, our friends within the 
tribes, the local entities and state entities and the private 
interests, and when you get all those parties interacting, 
sometimes the coordination effort gets more difficult.
    So I think we need better coordination and obviously more 
resources, and then we could start to make some better progress 
than what we're making now.
    Mr. Grijalva. Is much of what you've accomplished either in 
jeopardy or has it already returned to the previous state of 
disrepair due to the buffelgrass? I think all this is related 
to the current problems along the border. Not all, but a 
portion of it.
    Is it a contradiction or is it not, or how can your agency 
deal with the imminent threat of buffelgrass while you're 
simultaneously having to deal with preventing access to border-
related areas?
    Mr. Frost. Yes, that's a tricky issue because one of the 
logistical constraints is just the safety of the people out 
doing the work down there closer to the border. And so that 
makes it more difficult, which requires more resources, and so 
there's no easy answer.
    I think our working with the border patrol to make sure 
that they're not exacerbating the problem, making sure that our 
agencies on our side of the border are doing everything they 
can to address the issues. And until the assorted border issues 
get resolved, that's one of the facts of life we have to deal 
with. But I don't think we can give up because if we give up, 
then we've lost the fight.
    Mr. Grijalva. One of the gallant efforts is the volunteers. 
Is there a need, for the Department of the Interior, to invest 
a little money in the management of volunteer programs, which 
involves staff time and tools, because the Federal Government 
is getting a great return on its dollar.
    This is one of the most cost-effective options that is out 
there, but does the Department have the resources to continue 
to provide robust support for these volunteer organizations?
    Mr. Frost. Secretary Salazar has made the volunteer effort 
and youth working his high priority. I know, at the National 
Parks Service, we got an additional $10 million to increase our 
ability to work with the volunteers and work with the youth 
programs. And I know that, in the 2011 president's requests, 
there are additional funds to increase that even more. I don't 
know the number off the top of my head, but again resources, we 
can always use more resources. But the secretary has made this 
a high priority and has made those funds available so we can 
engage volunteers to address this issue and a variety of other 
ones.
    Mr. Grijalva. You stated that the battle against invasion 
can only succeed with a sustained and increased commitment to 
the problem, and nobody argues that.
    I translate that into a spending commitment to having to 
deal with it as well. The commitment to say we don't like 
buffelgrass and we wish it would go away is a commitment, but 
to put resources and funding behind the effort for coordination 
and for staff resources that would be required for the type of 
linkages, between the agency, tribal government and other 
jurisdictions, that need to be made, it's a resource question 
to me. I'm sure we're going to hear from other panelists today.
    So in this challenging time, are we talking about where the 
dollar goes or where the dollar doesn't go, in the Department 
of the Interior? How do we prioritize this as a critical issue 
given the fact that sometimes other funding requests fall under 
the radar, not the attention, but the attention after the fact.
    One of the reasons for this hearing is to draw attention 
and not to keep the issue under the radar. How would you 
respond to the fact that--this is my first question--the 
funding priorities and commitment issues as well.
    Mr. Frost. Let me talk a little bit about what we do at the 
national level, and then maybe I can ask Superintendent Sidles 
to come up and she can talk about how she prioritizes at the 
park.
    At the national level, in our national resources science 
program, we've made a significant commitment. I think we spend, 
I think, on park service-wide, we spend around $50 million a 
year on invasive species.
    And so we understand it is a critical issue that we have to 
deal with, and we are dealing with it on a day-by-day basis.
    And we have people like the folks from the park, they live, 
breathe and die invasives, and with that sort of commitment, 
and with additional resources, we can make significant 
progress.
    But we do prioritize, but there are other priorities. So 
it's one of those balancing acts that we have to do, but we do 
have significant resources committed to the process. Maybe I'll 
turn the time over to Darla for a minute and maybe Jim McKenna 
from BLM, too.
    Mr. Grijalva. Anybody want to speak on the same question?
    Ms. Sidles. Chairman Grijalva, thank you for the 
opportunity to speak. Darla Sidles, Superintendent of Saguaro 
National Park.
    And in answer to your question about the priority of 
buffelgrass, it is the highest priority and upmost urgency at 
the park. We don't always have the dollars to do what we need 
to do, so therefore it's kind of a catch-and-catch-can 
approach, but we find it is so important to do that we do just 
about anything we have to do to get it done. If we treat 
buffelgrass one year and then let it go another year, another 
year, it will increase by 35 percent to 50 percent each year we 
don't give it the same or more resources. So we haven't had a 
consistent funding base to carry on the buffelgrass program 
that we probably need to do.
    We use over 3,000 hours of volunteer time, and that goes 
back to one of your previous questions about why can't we just 
use volunteers, and the reason is that they're obviously a 
great resource and many of them are here today--they're very 
committed. But buffelgrass is moving at an exponential rate and 
we cannot keep up with it.
    We're using two different methods, both chemical and 
manual, but we don't yet have the technology using chemical 
means to get into some of the steep and rocky and dangerous 
country, and we don't want to put people at risk, people on the 
ground.
    So we need to find new research methods, new ways to be 
more efficient to treat buffelgrass, and it's not necessarily 
always going to work if they're volunteers.
    Mr. Grijalva. I'm assuming that your point is that, in some 
of those areas that you described, that that becomes more of a 
department responsibility as opposed to the volunteer efforts 
that can be coordinated at other sites?
    Ms. Sidles. That's correct. And in terms of urgency of the 
problem, I think the reason why we need a more coordinated, 
concerted effort is because there are so many agencies 
involved. It's Federal, state, city, county, nonprofit, citizen 
volunteers.
    There's such an amazing collaboration of partners that are 
dealing with this issue. The rural fire departments, even the 
city fire departments are dealing with this because of the 
problem that is threatening to overtake not only the town of 
Tucson but Sonoran Desert.
    A better coordinated response is needed so that everybody 
has the proper resources to tackle the problem. As I said, it's 
kind of a catch-as-catch-can approach from agency to agency, 
and we do the best we can, but as Bert said, we can always do 
better.
    Mr. Grijalva. Dr. Frost, in this coordinated effort that I 
think is essential to that, all the jurisdictions, interest 
groups, tribal governments, is there a need to identify a czar, 
a frontrunner of responsibility for the coordination and 
funding?
    Mr. Frost. I don't know. I might defer that to one of the 
locals. I have my own opinion. Sometimes I think that--I'll 
just say what I think.
    I'm not sure czars work very well all the time. I think, in 
terms of the park service, the number one priority in the park 
is dealing with this issue.
    Mr. Grijalva. Anything you'd like to add to that?
    Mr. McKenna. I would echo that point. To my way of 
thinking, there's also a risk if you identify a czar. The risk 
that I would see is this effort has gathered momentum. I think 
we probably didn't realize its scale soon enough, but we did 
have the success in the Watermans, and we're about to be able 
to move to the Silver Bell.
    We have prioritized, recognizing the vegetation communities 
and Ironwood National Monument are--monuments are obviously--
the monuments, we are placing very high priority on them.
    We have people that have put considerable personal 
commitment and effort into this. The Friends of the Ironwood 
were there to help with the surveys. The Friends of the 
Ironwood were there to help with the eradication. They went 
into some very difficult areas. The Sonoran Desert Museum has 
been involved. Rural fire departments have gotten involved.
    So what I think the opportunity here is in the community 
effort--and let me add one other thought here. We have in 
recent years worked with Tohono O'odham Nation, with their 
youth group, who has been working along the boundaries between 
the monument and the Nation and have done some tremendous work 
in terms of cleanup and other issues.
    We've talked about the opportunity to expand this effort 
over time and this seems like an area that also could have 
value.
    Mr. Grijalva. Do you wish to make a comment?
    Dr. Norris. I just wanted to comment that there are--as I 
stated earlier, the Nation has hosted a number of 
opportunities, through the use of volunteers, to address this 
issue. And I guess my comment really surrounds--surfaces around 
the fact that, as you know, Mr. Chairman and members of the 
Committee, the O'odham have lived in this region since time 
immemorial, and there's much on the desert lands that we use in 
our daily lives, as far as consumption purposes and cultural 
purposes.
    And the invasion of the buffelgrass to our continued use of 
bahidaj, which is the saguaro fruit that we harvest just before 
the monsoon rains come or ibhai, which is the fruit off of the 
prickly pear, or the wild spinach and other natural vegetation 
that we use for consumable purposes are threatened by continued 
use by this buffelgrass.
    So if we can assist in some way, as the assistant 
mentioned, through the use of our youth or the use of other 
members of the Nation to help address this issue, we would like 
to be able to continue to do that, but without having financial 
resources and other resources available to us, it makes it 
difficult for us to play an active role in the effort to 
address this issue.
    Mr. Eisen. My name is Mark Eisen. I'm a firecologist and 
also the deputy fire coordinator for the Fish and Wildlife 
Service Southwest Division.
    Chairman Grijalva, regarding your last question and 
prioritization of this issue, I'd like to speak to it in 
consideration of the scale and magnitude we're talking about.
    I think no one would argue, in the Southwest here, that 
this is a pressing issue; however, the scale is much broader 
than just Southern Arizona, as you know.
    One of the factors I think is that buffelgrass is a 
different invasive species. We cannot lump buffelgrass with the 
other invasive exotics. It's much different than what we've 
seen and how aggressively it invades arid lands and subtropical 
existence. I'd like to add the scale of buffelgrass extends 
down into Central America. And for the Wildlife Service, 
although we have much smaller refuges compared to our sister 
and brother agencies, our mission can be much broader with our 
trust species, migratory waterfowl, threatened and endangered 
and rare species.
    And this is what I'm talking about, the proliferation of 
buffelgrass in Mexico and Central America and South America and 
the very diverse subtropical systems and the threat to many of 
the tropical birds, threatened and endangered species and rare 
species in these areas, that also live in North America, here 
in the U.S.
    So the implications and threats to biological diversity is 
immense and should be considered a pandemic and truthfully is 
much broader basically than what we're talking about here.
    Mr. Grijalva. Thank you. The issue that was just stated in 
the opening comments, some of you have international 
implications not just what we do here on American soil.
    So I've learned to ask about what efforts are going on and 
what efforts need to be concentrated so that there's a bi-
national response and coordination with the Mexican government, 
Mexican communities.
    And the efforts are ongoing here because, as you indicated, 
that's a source of the invasion. And so how do we deal with 
that part of the source and what is being done now and what 
should we be looking at doing with our neighbors to the south.
    Mr. Frost. We need to work with our friends in Mexico, on 
the conservation side and the research side, and we have really 
good connections. They understand the severity of the issue and 
the complexity of issue, but where the difficulty comes is when 
you're talking about livestock, farming and ranching and just 
plain economics.
    Some of the poor people can harvest buffelgrass and go out 
and sell it to farmers as forage, and that's a source of their 
economic income. So they see that as a great opportunity.
    At the same time, it's causing great economic harm up in 
the United States. So while I think we have the conservation 
agencies and the research agencies working very diligently to 
address the issue, we need to better engage the livestock 
industry and some of the local communities across the border so 
they can understand why we shouldn't be perpetuating this 
species.
    Mr. Grijalva. And the long-term damage.
    Mr. Frost. Right.
    Mr. Grijalva. Ms. Krueger, as one of the parks and land 
managers in Southern Arizona, you have a unique responsibility 
for much of the public land. And a considerable amount of your 
budget is spent on fire management, as we both know, and 
realizing budgets are tight, but the funds dedicated to fire 
management, is some of it better spent trying to limit the 
problem rather than having to cope with its effects at a later 
date?
    Ms. Krueger. Yes. We do forecast buffelgrass both as 
hazardous fuel, a threat to wild and urban interface and also 
as a noxious weed. So there are several line items, from our 
budget, that we can use to fight this buffelgrass. We can use 
our hazardous fuels money. We can use our vegetative management 
dollars, wildlife, watershed and erosion money.
    Last year we took $140,000 out of our hazardous fuels 
program, and we hired a coordinator to help fight buffelgrass 
on the Santa Catalina district, and we intend to make that a 
permanent position. You're right, there are opportunities. We 
started that.
    Mr. Grijalva. And the same question I asked your 
colleagues, is this a funding or a coordination issue, in terms 
of adequately responding?
    Ms. Krueger. Some of the obstacles we face, we haven't had 
the resources, that's one thing. We have done recently 
landscape oral review in the Santa Catalinas, and we have just 
begun to identify how we best want to attack buffelgrass and 
where we should invest our money, and we'll be prepared to 
protect homes on the southwest rim of the Santa Catalinas.
    So again, as Mr. Frost said, challenges with steep slopes 
are a second obstacle we face. Another one, it's not a one-time 
treatment. It has to occur over at least five years.
    Our volunteers are the backbone of helping get rid of 
buffelgrass, but at the same time, we believe that there has to 
be herbicide treatment applied as well. So these are just some 
of the obstacles we face.
    Mr. Grijalva. So it's about stable funding committed over 
the long term--five, six years?
    Ms. Krueger. Yes, that's important, but this is long term. 
We don't believe in five years this is all going to be taken 
care of. We believe this is a long-term problem that we're 
going to have to continue to fight.
    Mr. Grijalva. Mr. Chairman, it appears as though Federal 
land agencies are working together with local, state, private 
entities as well as the tribes to coordinate strategies to 
combat buffelgrass.
    From your nation's perspective, do you feel that the 
coordination is helping the Nation combat the buffelgrass, why 
and why not, and more importantly, do you see that 
coordination? And the point of the resources, which you 
mentioned earlier, is well taken. What would make that process 
better?
    Dr. Norris. Mr. Chairman, members of the Committee, I have 
to admit, yes, that the Nation is cooperating and working 
closely with the Federal entities on this particular issue.
    I think though that we could probably improve our 
relationship and improve our level of working together on this 
particular issue, and I think for us, like I said in my 
comments, my prepared comments, we still--we, O'odham, still 
don't fully understand the extent of the buffelgrass situation 
on the Nation. We continue to study that. We continue to 
identify those areas that are most prevalent than others.
    So for us, we're still trying to figure out the extent of 
the issue on the Nation, and we know it is there. We know that 
it's creating an invasion, as we've termed it here. But what I 
would like to respond to also, Mr. Chairman and members of the 
Committee, is that when we talk about relationship and we talk 
about--I think your comment about this being a bi-national 
issue for the United States and as well for Mexico. I'd like to 
look at it as a tri-national issue, a tri-national issue 
involving the O'odham Nation, involving sovereign tribal 
nations with this issue and involving the United States 
government as well as the government of Mexico.
    As you know, the Tohono O'odham Nation villages 
historically have been mapped as far south as Hermosillo, 
Mexico. Currently we have nine villages that continue to exist 
as O'odham villages immediately south of the international 
border.
    So the relationship is a tri-national relationship that 
needs to be developed more closely with our counterparts, our 
friends with the United States government as well as our 
counterparts in Mexico, in order for us to begin to 
collectively work together and address this issue.
    You know the Nation is indebted to the resources that come 
from outside resources off the Nation because, when we've dealt 
with these fires that I referenced in my prepared comments, we 
didn't have the resources to be able to fight those fires. We 
could only address that to a certain extent.
    When those fires got to a certain acreage and size, we had 
to call on the assistance of the range fire people from outside 
the Nation, and they have been more than willing and able to 
come and help the Nation address those issues.
    So for us, it's really a lack of resources, a lack of 
funding resources, a lack of clearly identifying the extent of 
the problem within the Nation. And once we are able to do that, 
once we continue to work with the Federal entities and the 
Mexican entities, I think we can begin to have a better grasp 
on how we can address this issue.
    Mr. Grijalva. I appreciate that, and you answered partially 
the other question I had having to do with resources, and I'm 
talking about specifically dedicating funding to the effort 
that would involve the Nation. And the point about the tribe 
approaches is very good. Thank you for that.
    If the resources were available, as you have indicated in 
your testimony, Mr. Chairman, that would, I'm assuming, 
expedite the identification and response?
    Dr. Norris. Most definitely.
    Mr. Grijalva. Let me thank the panelists today for being 
here. There are additional questions that we're going to submit 
in writing and hope to get your response and it can also be 
part of the record. For the Forest Service, there are specific 
questions that I asked Mr. Frost having to do with the border 
issues and how that complicates the ability, in terms of 
resources and priorities, to deal with the buffelgrass 
invasion, and also some additional information from the BLM as 
to why that particular Waterman had been so successful and the 
lessons learned and applicable to other situations.
    And I appreciate the comments from Fish and Wildlife about 
the immensity we're dealing with in this region. The 
implications go much further than that, and I thank you for 
that. We get so territorial, we forget about the broader 
implications.
    And for the Tohono O'odham Nation, I think the issue of 
people partnering, I think that was basically very clear.
    We'll submit those to you and hope to get your speedy 
response so that we'll have the result of this hearing and have 
it out and help us formulate some response. Thank you very 
much.
    Mr. Grijalva. And let me now invite the second panel up.
    Thank you very much. Let me begin with our first witness, 
Sara Smallhouse, president of the Thomas R. Brown Foundation, 
Tucson.
    And I realize, Ms. Smallhouse, you have a time constraint, 
so after your testimony, with the indulgence of the other 
panelists, I'd like to ask you the questions I will be asking 
after all of the panelists are done, so you're not late.

        STATEMENT OF SARAH BROWN SMALLHOUSE, PRESIDENT, 
          THOMAS R. BROWN FOUNDATIONS, TUCSON, ARIZONA

    Ms. Smallhouse. I'm not under time constraints. Thank you 
for your consideration. Thank you for the opportunity because I 
know you went to great effort to organize all this. It is a 
matter of critical importance to our community, and the threat 
is growing, so thank you very much.
    For the record, I'll give a little background on myself. 
I'm a native Tucsonan. My parents moved here from the East 
because they were attracted here by the friendly community and 
beautiful desert setting. They were entrepreneurial and started 
Burr-Brown Research Corporation which manufactured high 
precision electronic equipment. And when the company sold to 
Texas Instruments in 2000, it was the largest sale in the 
State's history.
    Our family has prospered here, and they have given back 
proudly and shared our wealth through philanthropy and are very 
committed to the future here.
    I serve on the board of the Regional Economic Development, 
and I'm an active member of the Southern Arizona Leadership 
Council. And both of these organizations are aware of 
buffelgrass and are very concerned about it.
    I became aware of the buffelgrass issue at a meeting of the 
Southern Arizona Leadership Council Strategic Initiative 
Committee in 2008.
    Dr. Julio Betancourt, a USGS Senior Scientist, gave an 
overview presentation that pretty much shocked us all. Although 
we had been generally aware of the invasive species issue, the 
full consequences and extent and implications of a buffelgrass 
spread were a surprise to us. This particular invasion has the 
potential to undermine our quality of life and the basis of our 
economy. It hardly seems like it could be true. It almost seems 
like a plot of a science fiction horror film, but the 
scientists and land managers in the region are in agreement 
with their concerns, and none feel adequately equipped to 
address what needs to be done.
    There has been a strategic plan developed, and one of the 
principal recommendations was the formation of a nonprofit 
entity that could provide coordination among jurisdictions and 
help focus resources.
    It's not exactly a czar, but the Southern Arizona 
buffelgrass Coordination Center was formed. It's now the hub of 
the buffelgrass-related activities in the community. It's 
diverse, it's inclusive and it's the body through which choices 
are assessed and the inevitable trade-offs are evaluated. We 
have many of the people here that you've heard today involved, 
and I think we've made great progress in the short amount of 
time.
    I'm the current chairperson of that organization, and our 
family foundation helped provide early funding to get it going. 
I spend about a quarter of my time on the buffelgrass issue, 
and I do it because developing the capability to manage 
buffelgrass is not only important, but it's really urgent. And 
the outcome, one way or another, will have a huge impact on 
this community and more broadly. We can't be complacent or 
wishful. We have to act intelligently.
    There are only two basic choices right now. We can focus 
and invest substantial amounts upfront now to try to contain 
this destructive grass, and some of it can be easily managed 
with local resources going forward indefinitely, into the 
future, through adjusting the agency budgets of the people 
we've talked to and measured, such as that, or we can concede 
that we waited too long to address the problem and start 
preparing for a grass fire dominated environment, which also 
will take investment.
    Substantial investment in equipment and personnel to fight 
fires will have to be put in place to protect life and property 
if we let the buffelgrass take over.
    In many ways, the situation is kind of like the dikes in 
New Orleans prior to Katrina. We could fix the dikes. Yes, it 
would have cost a lot of money, but the eventual cost of not 
doing so far exceeded the cost of preventative actions, and it 
would have saved a lot of human suffering.
    Our choices are do we mitigate the spread of buffelgrass or 
delay and face more costly adaptation to a hostile, fire-prone 
environment later.
    I have become convinced, by the experts, that wholesale 
conversion of our landscape will, in fact, be inevitable 
without intervention. The point of no return is on the horizon, 
and there's a very real possibility of losing our magnificent 
and diverse desert and saddling ourselves with ugly landscapes 
and dangerous fires forever.
    Our tourism industry can easily dry up. People, like my 
parents, would choose other places to start a business, and 
companies considering relocation or expansion could easily 
choose to go elsewhere.
    And it's not just a local matter. The Sonoran Desert is 
unique to the Southwest, and there seems to be pretty 
widespread scientific consensus that the Sonoran Desert in 
Mexico is pretty much doomed. The Sonoran Desert of Arizona is 
the last place where saguaros have a chance. Our cacti are 
symbols of the wild west and embody the enchantment of the 
American frontier and are recognized throughout the world.
    If the ugly future is to be avoided, procrastination is not 
an option. The situation is changing fast. Buffelgrass spreads 
and doubles every year. To get a feel for that, if you double a 
penny every day for a month, you're a multimillionaire by the 
end of the month.
    So we desperately need some help. State and local resources 
have been pushed to the brink. We cannot do this on our own 
right now.
    The Buffelgrass Coordination Center submitted an 
appropriations request earlier this year to give Federal land 
managers more to work with. We need your understanding and 
support for this.
    People here have mobilized very quickly once they 
understood the true ramifications of buffelgrass and its 
spread. We have formed unprecedented alliances and 
collaborations that could never have been imagined before. We 
even have the Porsche Club of Southern Arizona involved. So 
with this broad spirit of cooperation and volunteerism, we are 
still not keeping up with it.
    The Sonoran Desert in Mexico is gone for good with no 
chance of recovering as we know it. It seems unbelievable but 
the same could happen here. Please intervene and direct 
resources our way so we can keep this from happening. We're 
prepared to do our part. Please help us by doing your part.
    Mr. Grijalva. Thank you very much.
    [The prepared statement of Ms. Smallhouse follows:]

              Statement of Sarah Brown Smallhouse, Chair, 
            Southern Arizona Buffelgrass Coordination Center

    Thank you for this opportunity to give testimony on the buffelgrass 
issue in Arizona. This is a matter of pivotal importance to southern 
Arizona now, and the threat is expanding. For an easy-to-digest 
overview please watch the 10-minute video on the home page of 
www.buffelgrass.org.
    I am a native Tucsonan. My parents moved to Tucson from the East 
because they were attracted to the community and the Sonoran Desert 
setting. They were entrepreneurial and started a company, Burr Brown 
Research Corporation, that manufactured high precision electronic 
equipment and became world renowned. The University of Arizona and Pima 
Community College educated and trained most of the employees that 
worked at Burr Brown and who created its capacity for great success in 
the world market place. When the company was sold to Texas Instruments 
in 2000 it constituted the largest corporate sale ever in the State of 
Arizona. My sister and I now carry the legacy of our parents and we are 
deeply committed to this community and its ability to prosper long into 
the future.
    The Brown Family Foundations have given many gifts over the years: 
Tucson Medical Center, the Arizona Cancer Center, the Tucson-Pima 
County Library, the University of Arizona, Pima Community College, San 
Miguel High School, the Wildcat School, the Sunnyside School District, 
and to key strategic initiatives benefiting the region. We were major 
supporters of the Southern Arizona Regional Town Hall. Our 
contributions of start up funding for the Critical Path Institute and 
Science Foundation Arizona significantly helped those organizations 
launch. We have endowed professorships at the University of Arizona, 
including that of Peter Smith, the first civilian scientist to ever 
lead a NASA mission. The Phoenix Mars landing was another historic 
moment for Arizona and we were very proud to have played a part. Many 
students at the University of Arizona benefit from scholarship programs 
we have funded; most recently we gave $2 million to the Arizona 
Assurance Program designed to help the most financially challenged--but 
talented and motivated--kids who apply to the University of Arizona. 
Pima Community College significantly updated their health sciences 
teaching facilities and upgraded technology needed to train respiratory 
therapists, radiological technicians and nurses with our help. We offer 
programs for public school teachers for professional development. We 
have substantially contributed to the public dialog through research, 
symposiums and forums in the areas of energy, infrastructure, 
immigration, and growth. We feel gratitude for our good fortune in 
Tucson and give back to the community in a myriad of ways.
    I participate in civic affairs in other capacities too. I serve on 
the Board of Directors of Tucson Regional Economic Opportunities 
(TREO), our local economic development agency, and participated in 
creating its strategic roadmap for investment and direction. I am also 
an active member of the Southern Arizona Leadership Council (SALC), a 
CEO group aimed at facilitating long term planning and leadership in 
Southern Arizona. These entities are the two most influential business 
organizations in the community and are where we put our collective 
stock in preparing for a productive future and continued high quality 
of life. They are both aware and deeply concerned about the potential 
impact the expanding base of buffelgrass threatens.
    I became aware of the buffelgrass issue at a meeting of the SALC 
Strategic Initiatives Committee of which I am a member. Dr. Julio 
Betancourt, a Senior Scientist with the U.S. Geological Survey, gave an 
overview presentation that shocked all who were in the room. I think it 
is fair to say many of us had been aware of invasive species issues in 
general, and may have even known buffelgrass was of particular concern, 
but the picture Dr. Betancourt painted took us all back. The potential 
consequences of this particular invasion have the potential to 
undermine the very foundation(s) of our community; our quality of life 
and the basis of our economy are threatened by buffelgrass. It hardly 
seems like it could be true--it is almost like the plot of a science 
fiction horror film--but the scientists and land managers in the region 
are all in agreement, are all deeply concerned, and none of them feel 
adequately equipped to address what needs to be done.
    Land managers organized themselves and wrote a strategic plan for 
how to most efficiently attempt to bring the invasion under control. 
There was recognition that many governmental jurisdictions and private 
property owners would have to coordinate their efforts to be 
successful. After all, if one property owner lets buffelgrass spread 
unchecked, regardless of how diligent his neighbor might be, the 
neighbor will never be able to keep their land clear as the buffelgrass 
will just keep reseeding itself. One of the principal recommendations 
of the strategic plan was to form a neutral non-profit entity that 
could provide such coordination and help focus resources. This is how 
the Southern Arizona Buffelgrass Coordination Center (SABCC) came into 
being. It is now the hub of all buffelgrass related activity in the 
community and is diverse and inclusive with participation from all 
sectors of the community. This is the body through which community 
choices are discussed, where all ideas have a forum and all sectors of 
the community come together to evaluate inevitable trade-offs. SABCC 
facilitates community-wide decisions and then organizes the teamwork 
necessary for progress.
    The Brown Family Foundation made an enabling gift to SABCC in 2009 
and I personally contribute about a quarter of my time to this issue. I 
choose to do so because it is important, it is urgent, and the 
outcome--one way or another--will have a huge impact of this community. 
I am committed to seeing this through. There is too much at stake to be 
complacent or wishful. We must act intelligently, and fast.
    I have come to appreciate the hard facts facing us: either we 
focus, invest substantial amounts up front now and try to contain the 
spread of this grass at some level that can be feasibly managed on 
local resources indefinitely into the future, or we concede we have 
waited too long to address the problem and start preparing for a grass 
fire-dominated environment. Neither of these paths will be costless; 
the fire regimes we can expect will be very expensive indeed and we 
certainly do not have the equipment or personnel to fight them now. In 
many ways this is a situation analogous to the dikes in New Orleans 
prior to Hurricane Katrina. We could have fixed the dikes--and yes it 
would have cost a bundle--but the eventual cost of not doing so far 
exceeded what preventative action would have cost, and it would have 
saved the terrible human suffering that came about from the extensive 
flooding. I believe we are facing a comparable problem here, but it has 
to do with the Sonoran Desert, grass and fire. Our choice is this: Do 
we mitigate the spread of buffelgrass, or delay and face forced (and 
more costly) adaptation to a hostile fire-prone environment?
    There is no doubt among those who understand this desert ecosystem 
that wholesale conversion of our landscape will be inevitable without 
intervention, and it won't take that long either. Not only will we lose 
the magnificent desert that creates enormous quality of life for the 
people who live here, but we will have saddled ourselves with ugly, 
expensive, and dangerous fires forever. The tourism industry, which now 
contributes billions annually and employs close to 50,000 people here, 
would surely disappear. People like my parents would choose other 
communities to start a business. Companies considering relocation or 
expansion might easily choose more friendly environs for their new 
operations and a higher quality lifestyle for their employees. Things 
could get pretty bad here.
    If this ugly future is to be avoided, procrastination is not an 
option. The situation is changing too fast. Estimates are the 
buffelgrass doubles annually; a large effort is needed upfront to 
contain the invasion to a smaller land area that can reasonably be 
managed with much smaller budgets going forward. This is why we have 
brought this matter to your attention. Right now we need your help. 
State and local resources have been pushed to the brink and we simply 
cannot manage this effort on our own right now. The appropriations 
request SABCC submitted earlier this year is for funds to begin on 
federal lands in southern and central Arizona. This is a responsible 
and meaningful first step.
    We believe this is more than a local matter of concern as well; the 
Sonoran Desert ecosystem is unique to the southwest and is already 
doomed in the northern states of Mexico due to widespread established 
buffelgrass. The Sonoran Desert of Arizona is the last place saguaros 
have a chance. Our giant cacti are symbols of the Wild West and embody 
the enchantment of the American frontier. They are recognized 
throughout the world. To lose the Sonoran Desert and all the 
biodiversity it holds would be more than just a local travesty.
    The broader Tucson community mobilized quickly once the true 
ramifications of buffelgrass spread were realized. All jurisdictions, 
area Tribes, parks, transportation departments, conservation and 
environmental groups, the business community, the utility companies, 
the University, the tourism industry, home builders, contractors, 
realtors, public safety officials and fire fighters, neighborhoods and 
homeowners, hikers, bikers and nature lovers, school kids, boy scouts--
even the Porsche Club of Arizona--all these groups have come together 
to do what they can. This community has united in a totally 
unprecedented way to prevent a terrible future from unfolding. We are 
all very appreciative of Congressman Grijalva for responding quickly to 
the threat we see and bringing this matter to the fore.
    Our community has fully engaged and formed alliances and 
collaborations that never would have been imagined before so we can be 
as effective as possible. But for all this good work, valiant effort, 
and broad spirit of cooperation and volunteerism, the buffelgrass is 
still spreading faster than we can keep up. We need help, and it is not 
within the capacity of our local or state governments to provide it. 
Right now we need help from Washington. The goal is to contain the 
buffelgrass spread, reduce the acreage infested, and then keep it under 
control through ongoing diligence. But for this plan to work there 
needs to be significant resources now to bring the problem under 
control.
    I lived for awhile in Southern Sonora, the Mexican state just south 
of Arizona. I often drove the road between Alamos and Tucson. Over the 
years I watched buffelgrass take over the Mexican landscape. The 
scientists I have spoken with are unanimous: the Sonoran Desert of 
Mexico is gone for good. No chance of it ever recovering at this point. 
It seems unbelievable that the same could happen here, but it is true. 
And it might not take that long either--a few decades. Please intervene 
and direct resources our way so we can keep this from happening.
                                 ______
                                 
    Mr. Grijalva. I was glad that you brought up the five-year 
strategic plan in the role of coordination. Anything additional 
you'd like to add to that strategic issue? I want you to define 
czar.
    There's an urgency for coordination and an urgency for 
logistical strategic planning, as we make trade-offs that 
inevitably happen in this process, but there's a blueprint 
where it's going and who is in charge of making sure that 
blueprint is carried out periodically. Is that what you see as 
the nonprofit or is that part of the five-year strategic plan 
that you're looking at?
    Ms. Smallhouse. Well, it is part of the five-year strategic 
plan and it's really substantially developed by the buffelgrass 
working group, which is the people who are charged with land 
management and who are out there trying to control the problem.
    What they're looking to the Southern buffelgrass 
Coordination Center to do is to raise awareness, focus 
resources, and where there are jurisdictional changes or 
different ownership patterns, that we can help negotiate what 
the most effective, least-cost way is to proceed in those 
boundaries.
    Essentially we have to reduce the scale of the problem to 
make it manageable going forward. Eradication is probably not a 
reasonable goal. What can we do to enable our future capacity 
to keep this in check, and we've had all levels of help, the 
City of Tucson, all those towns, Pima County volunteer group, 
school groups, the utilities, the resorts, all manner of 
collaboration. Everybody is very interested. They just need to 
know what their role is. That's something that the coordination 
center can provide.
    Mr. Grijalva. I thought the plan--the alliance you drew up 
was very impressive and you identified that you prioritized 
twelve hot spots where initial work has to be done. Those are 
the priority areas.
    What do you see as proposals for addressing the infestation 
that occurs in other areas, not just the twelve hot spots, be 
they public or private?
    Ms. Smallhouse. We've evolved and we're refining that. And 
right now actually we're taking a look at the whole basin right 
now and evaluating where the most sensitive places are, where 
is the most value at risk, from a fire management point of 
view. With buffelgrass moving up into the Foothills, there's a 
possibility of forest fires catching on valley fires and vice-
versa.
    So there are some strategic places where we really need to 
focus, and from the very get-go, the problem was we couldn't 
give a firm figure, how much is it going to cost to do this, 
exactly where are we going to tackle first.
    So one of the very first priority projects of the 
coordination center has been to initiate a mapping project 
where those questions can be specifically addressed so that we 
put our early resources to their highest and best use. Does 
that answer your question?
    Mr. Grijalva. Yes, thank you. And so if you need to go, you 
can go or you can stay.
    Ms. Smallhouse. I appreciate your flexibility. But I 
actually would like to stay and hear the other panelists. I'm 
deeply invested.
    Mr. Grijalva. Burr-Brown and the Duval Mine are responsible 
for me being here. When I graduated from Sunnyside, I applied 
at both places and I didn't get a job. So I went to the 
University of Arizona and I went a whole different direction. 
But they're the best employers Southern Arizona has ever had.
    Ms. Smallhouse. Thank you.
    Mr. Grijalva. Let me now turn to Dr. Richard Mack. Thank 
you for coming this way, from the School of Biological 
Sciences, Washington State University, Pullman. Thank you very 
much, sir.

   STATEMENT OF RICHARD MACK, SCHOOL OF BIOLOGICAL SCIENCES, 
        WASHINGTON STATE UNIVERSITY, PULLMAN, WASHINGTON

    Dr. Mack. Thank you, Mr. Chairman, and I appreciate very 
much having the opportunity to speak on this issue.
    As in my written testimony, as background, I spent most of 
my research career dealing with invasive grasses in arid 
systems, cheatgrass, buffelgrass and similar epidemiologies.
    I want to comment, based on my perspective from my research 
career, on the question you proposed earlier to several of the 
panelists in group one, which is, is this a capacity issue or 
resource issue, and I think we can always say that we can add 
more resources. We can add more capacity. I'll go a step 
further and say you can hire several czars.
    But I would take a different tack on this and agree with 
that, which is I think we, as a society, need to have a change 
in our attitude about how we deal with invasive species like 
buffelgrass.
    Frankly whether or not we want to express it this way, I 
think we deal with invasive species far too often as similar to 
earthquakes or hurricanes or tornadoes. In other words, we 
clean up the mess after they roar through, and we restore the 
site and then we sort of hunker down and wait for the next wave 
or the next hot spot to pop up or whatever.
    That frankly isn't going to get us that far in the long 
run. That deals with the short-term issues. The mechanical 
removal, herbicides, all have their proper place on a local 
scale, but as you already heard this morning, we're dealing 
with a regional phenomenon. In fact, it's likely to get bigger 
than a regional phenomenon in the case of buffelgrass. That 
calls for a landscape scale treatment. And quite honestly, in 
my experience, the only tool left in the toolbox of more 
invasive species treatment and one that hasn't been dealt with 
is biological control.
    Now, as you know, Mr. Chairman, biological control is the 
identification, selection, rearing and release of agents which 
attack specifically the target species, which, in this case, 
would be buffelgrass.
    That kind of research has two prime goals, one of which is 
to release an agent which is effective. Best of all, it kills 
it. But at least, it debilitates it.
    But at even a higher priority is that it must be 
extraordinarily specific. It will only attack the target 
species and no other species. That's extremely important when 
we're talking about grasses, for the obvious reasons of typical 
host extension on to very radical grasses, native and 
introduced into this country.
    So we certainly would have to be extremely careful in that, 
but the classical biological control is as close to the 
proverbial silver bullet as ecologists can ever produce.
    It will attack the beast, and if not destroy it outright, 
will greatly reduce its role because frankly I'm not here to 
talk about controlling buffelgrass. I'm here to at least 
offering the option of us to consider eradicating it or 
reducing its central role so it's really a minor species in the 
landscape, not what we have today.
    Now, of course, that's going to take a lot of research and 
a lot of sustained research, I might add, that we aren't 
investigating yet, but I advocate it is done, it can be done 
and it is feasible.
    And there are parallels, not just in this country, but 
elsewhere in the world, in which this kind of work has been 
undertaken, not yet for buffelgrass, but it can be and most 
specifically dealing with microorganisms that can be used for 
this approach.
    This requires considerable care, and getting back to this 
issue of extreme specificity to make sure that we select 
microorganisms down to the genotype level that attack specific 
genotypes of buffelgrass.
    We have done some work in this, but we have to characterize 
the genetics of buffelgrass far better than it has been so far. 
Moreover we've got a big job ahead of us in characterizing the 
microorganisms that can attack it.
    Now ten years ago, if I proposed that--well, I never would 
have because it would have been totally impractical from the 
standpoint of logistics and the costs of it, but the good news 
that I can tell you is that the costs of this kind of 
examination have collapsed and fallen greatly in the last ten 
years, and I detail, in my written testimony, how the human 
genome project costs the Federal government three billion 
dollars in costs over ten years. That has dropped in 
considerable magnitude since then.
    We can now do that same project in less than two months. In 
fact, there's evidence that backs that up. So the cost of this 
is coming down to a scale where we can consider these species, 
and we can potentially select for them.
    There's no guarantee with biological control that it works, 
but what I can say, and I think we all agree on this, if we 
don't deal with this at that kind of scale, that landscape 
scale climate control can deal with, this problem is only going 
to get worse.
    I think we need a difference in our attitude about new 
tools and new tactics in strategy, in addition to the issue you 
asked, the rhetorical question about coordination of resources.
    [The prepared statement of Dr. Mack follows:]

   Statement of Dr. Richard N. Mack, Professor, School of Biological 
       Sciences, Washington State University, Pullman, Washington

    Good morning and thank you for the opportunity to provide testimony 
here today.
    I am Richard N. Mack. I am a Professor of Biological Sciences at 
Washington State University. I am an ecologist, and for the past 35 
years my research has dealt with invasive plant species and more 
specifically with invasive grasses in the Far West. Much of my research 
on invasive grasses has concentrated on the century long invasion of 
cheatgrass (Bromus tectorum), a native of arid Eurasia and northern 
Africa, in its vast new range in the Intermountain West.
I. Plant Invasions in Arid Regions: A Recurring Phenomenology and 
        Learning from One Invasion as Preparation for Combating the 
        Next Invasion
    A point that I hope to demonstrate today is that lessons we have 
learned from investigating the spread, population biology and 
consequences of the invasion of cheatgrass, an invasion that was 
underway a century ago, provides valuable lessons in determining the 
future for other invasive species in arid ecosystems in the U.S., in 
particular buffelgrass (Pennisetum ciliare). The phenomenology of all 
terrestrial plant invasions shares many characteristics (Rejmanek et 
al. 2005), although admittedly each invasion has some unique features. 
As a result of shared characteristics and features, many of the lessons 
and consequences we see in the long term invasion by cheatgrass have 
reliable carry-over for our understanding of the still developing 
invasion by buffelgrass in much of the U.S. Southwest.
    As has been true for almost all plant invasions, the invasion by 
cheatgrass began slowly with its introduction into isolated areas. 
Populations of this non-native grass grew readily and small pockets of 
its occupation, perhaps just a few acres, developed at a handful of 
sites on the Columbia Plateau and in northern Utah in the late 19th 
century. Unlike buffelgrass, the entry of cheatgrass was almost 
entirely accidental (Mack 1981). Although the mode of introduction 
(accidental or deliberate) can affect the number of entry sites, all 
plant invasions are dependent on a large measure of pre-adaptation of 
the non-native species to the physical and biotic components of 
environment in the new range. For both cheatgrass and buffelgrass, a 
major pre-adaptation has been to an arid environment through a varying 
array of physiological mechanisms (Smith et al. 1997). Equally 
important for both these grasses has been a tolerance to grazing by 
large mammals. Such tolerance is exceptionally important for two 
reasons in the context of the arid American West: many native species 
cannot tolerate routine (or even seasonally restricted) removal of 
plant material by grazing because the plant's ability to replace 
biomass ultimately requires water, and water is almost always limiting 
in the American arid grasslands and deserts. Furthermore, to a degree 
not widely appreciated by the public, our arid treeless regions in the 
Far West did not support large herds of native ungulates (bison, elk, 
antelope, deer) before the extensive arrival of settlers in the 19th 
century (Mack & Thompson 1982). Consequently, our native plant species 
in this huge region are at a competitive disadvantage with non-natives, 
such as cheatgrass and buffelgrass, in the greatly altered environment 
brought about with the introduction of livestock.
    The rise of the public's alarm to the spread of cheatgrass also 
deserves comparison to the events still unfolding with buffelgrass. 
Although cheatgrass was recognized early on by farmers as a troublesome 
weed, the whole scope of the damage that it would cause was not 
recognized until after it was too late to curb the invasion, much less 
eradicate it, with the tools available in the early 20th century 
(laborious mechanical removal). Within less than 20 years (1915-1935), 
cheatgrass went from a problem in croplands on the Columbia Plateau and 
northern Utah to a regional invader in croplands and the much more 
extensive rangelands in a five-state area (Mack 1981). The damage this 
small (usually less than 18 in. tall) grass now wreaks is massive in 
terms of its contribution of fuel for wildfires on a scale that the 
native plants never contribute. Proliferation of cheatgrass and the 
recurring fires its fuel produced has caused almost total replacement 
of palatable native grasses for livestock with a low value, temporary 
forage. In addition, cheatgrass remains a persistent weed in crops 
(mainly wheat, barley and oats) on the Columbia and Snake River 
Plateaus.
The Worst Damage by Invasive, Combustible Grasses is not Immediately 
        Seen
    The worst damage caused by cheatgrass however (and ominously 
similar to the growing role of buffelgrass) has been the aftereffects 
of huge (as much as 500,000 acres) fires that almost yearly ravage its 
new range here in the West. In addition to the immediate loss of 
property and even human life caused by cheatgrass-fueled fires is the 
loss of soil from this region. These fires consume all vegetation in 
their path and the result is a lifeless, blackened landscape with no 
vegetation left that could check sheet-wash and erosion. This soil, 
which is an irreplaceable natural resource for the Nation, is destined 
to wash into the region's waterways. The Snake and then the Columbia 
River are the eventual resting places for this new sediment. Sediment 
clogging these rivers threatens the efficacy, and even outright 
sustainability of the hydroelectric dams along these waterways, 
including Grand Coulee Dam in Washington and the Bonneville Dam on the 
Columbia River at the Oregon-Washington border. So severe is erosion 
from the Snake-Columbia watershed that the U.S. Army Corps of Engineers 
must routinely dredge these waterways of sediment to maintain the 
rivers as navigable waterways and to minimize sediment that would 
interfere with turbine performance in these dams (http://www.nww.
usace.army.mil/dmmp/default.htm). Much of this cost (and the attendant 
concerns about environmental damage caused by annual dredging [http://
findarticles.com/p/news-articles/columbian-vancouver-wash/mi--8100/is--
20050619/corps-seeks-input-dredging-snake/ai--n51309342/] can be blamed 
on cheatgrass and the fires it fuels in the region.
    Here again, the invasion of cheatgrass and its consequences in the 
Intermountain West presage events and circumstances that are unfolding 
with the buffelgrass invasion in the Southwest. As a non-native grass 
deliberately chosen for forage, buffelgrass was introduced initially 
into more locales than was the accidentally-introduced cheatgrass 
decades earlier. But much of the subsequent spread of buffelgrass has 
occurred through its own seed dispersal, rather than direct 
introduction by humans. Similar to the unfolding invasion of 
cheatgrass, the early small infestations of buffelgrass were worrisome 
to some, but ignored by many others--until the new range occupation 
became only too apparent.
Invasions of Invasive Species take on an Accelerating Pace
    The rate of new range occupation and increase in abundance of 
invasive species forcefully illustrates one of the most powerful 
aspects of the performance of an invasive species under conditions it 
finds ideal (and simultaneously illustrates an important difference 
between the need for swift reaction to combat its spread, compared with 
a pollutant, such as a heavy metal contaminant in soil). Species have 
various modes of persistence, including the production of seeds. Under 
conditions a species finds ideal (as defined by the species), its 
vegetative growth and its seed production may be prolific and form a 
performance trajectory that grows with compound interest. The accrued 
interest for a species, such as buffelgrass, is the rapid increase in 
seeds and in-turn new parent plants. This growth in numbers adds 
individuals to the population at an exponential rate, so that the 
doubling time for the population becomes increasingly short, e.g. from 
decades to just a few years. Consequently, the immigrant population 
grows and expands its range: a few individuals in a small locale 
increase to many individuals occupying a much larger area (Mack 1981; 
Williamson 1996). When viewed in a map, the initially occupied areas 
grow, and eventually coalesce at an accelerating rate (Elton 1958; Mack 
1981). The alarm that is being legitimately sounded now about the 
spread and prominence of buffelgrass is a recurring public reaction to 
the development of a biological invasion.
II. The Need for a New Course of Action in Combating Buffelgrass
    Given the size of areas occupied by invasive grasses such as 
buffelgrass, one might readily conclude that these species and the harm 
they cause are with us for good, and that at best all we can do as a 
Nation is pay for site restoration after an invasive grass burns over a 
huge area. (This approach is roughly analogous to cleanup after a 
hurricane or an earthquake, i.e., cleanup is our only option; 
prevention of the next calamity is not possible.) Although site 
restoration through re-seeding and careful conservation of areas once 
occupied by an invasive species is always required, we need to take a 
much broader, science-based, view of not only restoring areas damaged 
by buffelgrass but also actively implementing a sustained program to 
roll-back the invasion.
What Is Being Done (and What Can also be Done) Now
    The current control of buffelgrass locally has often produced 
positive results, such as the laudable campaign to limit its spread in 
the Saguaro National Park and Organ Pipe Cactus National Monument. 
Using dedicated volunteers, U.S. National Park personnel have removed 
buffelgrass from many areas within both sites, perhaps most important 
has been its removal along roads, which serve as excellent corridors 
for the grass's spread http://www.nps.gov/orpi/naturescience/invasive-
plant-species.htm). Other groups within the Tucson area have also 
banded together to remove local grass infestations. These efforts pay 
immediate dividends by protecting sites of high cultural and 
conservation value and should be encouraged, expanded and sustained.
    Another, non-mutually exclusive approach that can be done now 
(short term) is admittedly more controversial. Although buffelgrass has 
been banned for planting and transporting in Arizona since 2005 
(Schiermeier 2005), the grass is available for sale elsewhere in the 
U.S. and even overseas. Furthermore, an active research program has 
been pursued elsewhere in the U.S. to breed cold tolerance into 
buffelgrass so as to expand its geographic range as a forage grass 
(Hanselka 1988; Hussey & Bashaw 1996; Hussey and Burson 2005). This 
line of investigation has led to the release for sale of a cold 
tolerant strain ``Pecos Buffelgrass'' (http://www.pogueagri.com/
Buffelgrass_Pecos_Brand.aspx). I am unaware of any evidence that this 
variety has become invasive. But developing new varieties of this grass 
that would extend its geographic range seems problematic, particularly 
in any cases in which the new variety is derived from the same basic 
genotypes as those that are now invasive in the Southwest. Policy-
makers could consider strengthening the prohibition of this grass's 
sale and transport as well as evaluate whether developing new 
buffelgrass varieties is in the overall public interest.
What can be done in the Long Term--Exploring Biological Control
    I contend that while a variety of tools have been used to control 
invasive grasses, such as buffelgrass, including herbicide application, 
mechanical removal, and controlled burns of accumulating fuel, we need 
to investigate additional approaches to this problem that are more 
effective at all landscape scales. The cumulative areas already 
occupied by buffelgrass defy effective control, much less permanent 
removal, by any of the tools that gave been employed so far. Herbicides 
are rarely practical over large areas, and often incur public comment 
on the potential for collateral damage to waterways, livestock, native 
species and humans; mechanical removal is impractical for an invader 
that now occupies so large an area. (Although it can be effective in 
protecting small areas of special interest or sensitivity.) Controlled 
burns are a highly contentious issue in the West--certainly appropriate 
in some circumstances in forested sites but is problematic or even 
counter-productive in habitats that buffelgrass occupies. (And of 
course, it is not feasible near buildings, highways or anywhere near 
where humans reside.)
Biological Control--the last big (untried) tool in the toolkit for 
        combating invasive grasses
    The biggest single tool left remaining in the invasive plant 
toolkit for combating buffelgrass (and other invasive grasses in the 
West) is biological control. Biological control refers to the release 
of organisms, usually native to the native range of the invader, which 
readily attack the invasive species--and only that species. The USDA 
has a long, successful history of having discovered, developed and 
released effective biological control agents in the U.S. Invasive plant 
species that have been effectively curbed in this manner over large 
areas include St. Johns Wort and Dalmatian toadflax (Coombs et al. 
2004). The biological control agents released in these cases have been 
insects, but it is unlikely that any insect can be found that attacks 
only buffelgrass. (Grass species rarely have specific insect predators 
or grazers.)
    The search for biological control agents for buffelgrass will 
instead need to be for microorganisms (e.g. bacteria, fungi) that have 
the requisite lethality and specificity for this invader (e.g., Auld 
and Morin 1995; Hintz 2007). Specificity in attack of buffelgrass or 
any invasive grass is of paramount importance, given the need to 
prevent introduction of any microbial agent that inadvertently also 
attacks a native or valued introduced grass. (Admittedly the most 
severe concern would deal with commercial grasses employed in food 
production, such as corn, wheat, oats and rice.). Neither the invasive 
grass nor the microbial species to be evaluated as control agents are 
genetically uniform, although most buffelgrass in the U.S. was produced 
through asexual seed production, i.e., the seed develops without 
requite pollination (Gutierrez-Ozuna et al. 2009). Whatever the extent 
of the grass's genetic variation, whether termed subspecies, races, 
varieties or most specifically, genotypes, it will nevertheless need to 
be characterized. The same characterization will be necessary for any 
microbial taxa that may show promise of buffelgrass control under 
laboratory conditions.
Key to finding Effective Microbial Control Agents will be 
        characterizing their specificity
    To develop an effective bio-control program against buffelgrass (as 
well as other invasive grasses in the West) will require commitment to 
a research program by USDA (in association, for example, with 
researchers at land grant universities and others) to identify 
microbial agents that meet a high standard for efficacy in control of 
the invader and strict specificity. Such research will likely involve a 
long term financial commitment by state and federal governments to 
ensure that the project is given the opportunity to succeed. 
(Development of biological control agents from initial collections 
through evaluation to release on the target species often involve a 
work that spans as much as 10 years or more). Research for biological 
control agents does not guarantee a successful outcome: some searches 
for effective agents against other plant invaders have yet to identify 
an effective agent (Coombs et al. 2004). And as pointed out above, 
great care will be needed to ensure that no introduced agent can attack 
any non-target grass, especially a crop species. Unintended target 
species often include close taxonomic relatives of an invasive species. 
Although no Pennisetum species are native to the U.S., pearl millet 
(Pennisetum glaucum), a commercial crop, is a relative. Consequently, 
care certainly would need to be directed at insuring the release of an 
agent that does not attack pearl millet.
    As illustrated with the presence of a valued relative of 
buffelgrass in the U.S., the scientific hurdles in such a research 
program are admittedly sobering. But I certainly do not mean to paint a 
pessimistic picture. The opportunity for success in this research has 
never been better: recent advances in the molecular technology needed 
to screen and characterize the genetics of large number of 
microorganisms has taken quantum leaps, even the last half dozen years. 
Analyses that once took years, can now be completed in a few months and 
at a small fraction of the cost 10 years ago. For example, the 
federally funded Human Genome Project, a massive research program to 
map all the genes that we humans possess, took more than a decade and 
cost 3 billion dollars (http://www.technologyreview.com/Biotech/18809/
?a=f). In sharp contrast, 80% of the Paleo-Eskimo genome, i.e., 
duplicating the original Human Genome Project but for a specific group 
of humans, was completed recently in 2 months for $500,000 (Rasmussen 
et al. 2010). These costs and the length of the analyses will 
undoubtedly drop further with rapidly improving technology in the next 
few years. Nevertheless, federal commitment to this program through the 
USDA and its research partners will involve multi-year careful 
laboratory evaluation of potential bio-control agents.
    Although I am optimistic about the ability to rapidly screen 
potentially hundreds of microbial taxa for efficacy and specificity, I 
deliberately avoid painting an overly optimistic picture of the ability 
to find effective agents for buffelgrass. There are no assurances of 
success in the search for biological control agents. I emphasize 
nonetheless that the search for these agents, given the growing scale 
of the damage attributable to this invader, is worth the endeavor. 
Without it, buffelgrass will continue to expand its range, and this 
range expansion will occur even without our factoring in the potential 
for this grass to expand its range under future global warming.
Postscript: What Can be Done Now and in the Future
    Buffelgrass was deliberately introduced in an era in which the 
ability to evaluate the potential detrimental features of a non-native 
grass were rudimentary (e.g. prohibition of parasitic plants and 
species known to harbor pathogens that could attack crops). In 
retrospect, the introduction of buffelgrass and other species should 
have been blocked, and these lessons are reflected in current 
quarantine laws and Weed Risk Assessments (WRA), illustrated by the 
Plant Protection Act of 2000. (http://www.aphis.usda.gov/lpa/pubs/
fsheet_faq_notice/fs_phproact.html). USDA APHIS diligently carries out 
enforcement of this and other regulations. Needed however is a 
strengthening of our ability to detect and prohibit the entry of 
problematic species that may pass or at least not fail current 
screening procedures. Although some invasive or otherwise noxious 
species would likely arrive under any evaluation protocol short of a 
total (an economically untenable) ban on plant imports, post-
immigration (but pre-release) experimental field testing and evaluation 
of these species would likely pay important dividends. For example, had 
buffelgrass been evaluated in field trials in its intended range in the 
Southwest before its widespread introduction, its invasive properties 
would likely have been detected. Much cheaper to the Nation than the 
high cost of a potential ``Product recall'' for buffelgrass and other 
deliberate plant introductions that have become invasive would be an 
effective, transparent, science-based procedure for their detection and 
removal. Steps are underway to develop such a system for the future 
(Mack 2005; Davis et al., in press).
References
Auld, B.A. and L. Morin (1995). Constraints in the development of 
bioherbicides. Weed Technology 9:638-652.

Coombs, E.M. et al. (eds.) (2004). Biological control of invasive 
plants in the United States. Corvallis : Oregon State University Press,

Davis A.S., R. N. Mack et al. (2010). Screening bioenergy feedstock 
crops to mitigate invasion risk. Frontiers in Ecology and the 
Environment, in press. www.esajournals.org/doi/abs/10.1890/090030]

Elton, C. S. (1958). The Ecology of Invasions by Animals and Plants. 
London, Methuen.

Gutierrez-Ozuna, R., Eguiarteb, L.E. and Molina-Freanera, F. (2009). 
Genotypic diversity among pasture and roadside populations of the 
invasive buffelgrass (Pennisetum ciliare L. Link) in north-western 
Mexico. Journal of Arid Environments 73: 26-32.

Hanselka, C.W. (1988). Buffelgrass: South Texas Wonder Grass. 
Rangelands 10: 279-281.

Hintz, W. (2007). Development of Chondrostereum purpureum as a 
mycoherbicide for deciduous brush control. In: Biological control: a 
global perspective (C. Vincent et al., eds.) pp. 284-299). CAB 
International, U.K.

Hussey, M.A. and E.C. Bashaw. (1996). Performance of buffelgrass 
germplasm with improved winter survival. Agronomy Journal 88: 944-946.

Hussey, M.A. and B.L. Burson (2005). Registration of 'Frio' Buffelgrass 
Crop Science 2005; 45(1): 411--412.

Mack, R. N. (1981). Invasion of Bromus tectorum L. into western North 
America: An ecological chronicle. Agro-Ecosystems 7: 145-165.

Mack, R.N. (2005) Predicting the identity of plant invaders: future 
contributions from horticulture. HortScience 40: 1168-1174.

Mack, R. N. and J. N. Thompson (1982). Evolution in steppe with few 
large hooved mammals. American Naturalist 119: 757-773.

Rasmussen, M. et al. (2010). Ancient human genome sequence of an 
extinct Palaeo-Eskimo. Nature 463: 757-762.

Rejmanek, M. et al. (2005). Ecology of invasive plants: state of the 
art. In: Invasive Alien Species: a New Synthesis. (Mooney, H. A., Mack, 
R. N., et al., eds.), pp. 104-161. Island Press, Washington, D.C.

Schiermeier, Q. (2005). Pall hangs over desert's future as alien weeds 
fuel wildfires. Nature 435:724.

Smith, S. D., Monson, R.K. & Anderson, J.E. (1997) Physiological 
Ecology of North American Desert Plants. Springer, New York.

Williamson, M. H. (1996). Biological Invasions. London: Chapman & Hall.
                                 ______
                                 
    Mr. Grijalva. The Tamarisk and other exotic plants, the 
biological efforts have taken on in the desert to try to 
control those species, you mentioned the word research line. I 
agree with you. I think this is a many-fronts war, and 
unfortunately--and we've had many hearings over a variety of 
invasive species and the effects they are having generally over 
the environment, now in our public lands.
    The research development, the biological control aspects of 
it have always been the last tier of discussion in those 
efforts. It's about control. It's about targeting and hoping 
they don't come back. I think your point is well taken. This is 
a many-fronts war.
    Can you elaborate a little more on the research line, how 
do you see that as an important part?
    Dr. Mack. Well, the traditional steps--and, of course, 
they'd have to be modified for these issues--would involve 
wide-scale screening of all microorganisms that can attack 
buffelgrass, and most of all literally fieldwork, not just in 
this country but overseas, and then the genetic 
characterization of those organisms under controlled laboratory 
conditions far removed from the potential release of them, so 
they can be evaluated so they are indeed specific to 
buffelgrass and its various genotypes itself.
    It's a long-term program or protocol. It's well worked out 
with insects as well as microorganisms. Folks that do this type 
of work are conservative to the extreme in terms of making sure 
that they don't release something that undergoes an unintended 
attack on a nontarget species.
    So the bad news about it, in that sense, is it's a long-
term research program. This is not a quick term fix, but I 
think we're agreeing that the tools that are already on the 
table that are being used locally, however you define locally, 
need to be continued, but this program I think needs and should 
run in tandem.
    Mr. Grijalva. The research and development component is not 
at the expense of the current control component?
    Dr. Mack. I don't think it should be done at the expense 
of. I think it should be done as a parallel line of pursuit.
    Mr. Grijalva. You talked about changing attitudes when it 
comes to biological eradication or control?
    Dr. Mack. Yes.
    Mr. Grijalva. Is it an education issue? Is that how we get 
to that point?
    Dr. Mack. It very much is. In fact, we have a precedent in 
this country for doing that. It's always remarkable to me that 
the Federal Government, and specifically the USDA, has let this 
fine record, in this very area, slip into institutional memory 
or lack of memory because 80 years ago this country faced an 
enormous problem, frankly, which I think is more devastating 
than buffelgrass--with European Barberry, which is the 
alternative host for stem rust on wheat.
    It was devastating the wheat crop, the crops grown in a 13-
tier, 17-state tier. They used the tools they had at the time, 
which involved largely mechanical removal and very primitive 
types of herbicide treatment, and they destroyed the European 
Barberry, essentially brought down the damage to wheat at a 
time that it was critically important. It took 30 years. It 
took hundreds of thousands of people.
    So I'm not advocating that as particular tools and tactics 
to use, but nevertheless, we do have a precedent for that wide 
scale public acceptance of a sustained program that has, as its 
goal, eradication.
    Mr. Grijalva. Without the Pandora's box?
    Dr. Mack. Yes, without the Pandora's box. We've learned a 
lot in 80 years. So the science today, all I can say is it's 
better than the science then. So when we consider all these 
other tools, they weren't even on the horizon then.
    Mr. Grijalva. With a century of research on grass with no 
biological control mechanism, what leads you to believe that 
the biological control mechanism, with regard to buffelgrass, 
is valid?
    Dr. Mack. Because it hasn't been explored. It's the last 
tool we have left. We know this tool works with other species. 
In fact, with cheatgrass, we've had more experience with it. 
Doug Coomer asked me--he's currently exploring my core band for 
cheatgrass.
    It's a case where we're going to consider what we thought 
we couldn't do before and investigate it. We don't know that 
we're going to have a guaranteed agent coming out at the end of 
the tunnel, but we do know we'll never find it if we don't look 
for it.
    Mr. Grijalva. Thank you very much. I appreciate it. Looking 
by way of acknowledgment and introductions, first I'll 
acknowledge Dr. Betancourt for all his work and his persistence 
with our office. We appreciate it very much.
    Also welcome my former colleague on the Board of 
Supervisors, Supervisor Elias. Thank for you being here today.
    Mr. Grijalva. Let me now turn to someone I used to work 
for, my good friend, Mr. Chuck Huckelberry, who is the 
Administrator for Pima County. One time I went to talk to him 
about the Sonoran Conservation Plan, and I was introduced by 
the then supervisor from Maricopa, as Chairman Raul Grijalva 
from the People's Republic of Pima.
    Mr. Huckelberry. We've been called worse.
    Mr. Grijalva. Right in this chamber too. I want to thank 
you, Chuck, because with the process of getting the planning 
and discussion and the research for the Sonoran Conservation 
Plan, one of the things that Mr. Huckelberry educated many of 
us on was the whole issue of invasive species, both in the 
Sonoran Desert and in general, and for many of us, that was a 
shocking realization that we'd like to go about our days not 
knowing, that all around us the ecology that we're trying to 
save is being threatened, not just by homebuilders but by 
invasive species coming into the region. So I appreciate that.
    Mr. Huckelberry, comments.

  STATEMENT OF CHUCK HUCKELBERRY, COUNTY ADMINISTRATOR, PIMA 
                    COUNTY, TUCSON, ARIZONA

    Mr. Huckelberry. Yes. Thank you, Mr. Chairman. It's good to 
see you in Pima County again, even if it is in the Council's 
chambers.
    I'd like to offer our comments and concerns with regard to 
the issue of buffelgrass. And frankly I think I've seen 
buffelgrass transition, in Pima County at least, from a 
potential ecological disaster to one now that frankly can be a 
public safety disaster.
    We've already seen, in this community, one death from an 
uncontrolled buffelgrass fire. We have today hundreds of homes 
on the front faces of the Catalina Highway that are all subject 
to buffelgrass wildfire and that could, in fact, cause public 
safety chaos within this community. It needs action. It needs 
to be controlled.
    We need to understand that it is not only the threat that 
it is to the ecological soundness to the Sonoran Desert, in 
maintaining our cultural diversity, but it is a true public 
service threat.
    As you know, we've worked together to try to develop and 
implement a Sonoran Desert Conservation Plan, a far-reaching 
plan trying to really retain the species diversity of the 
Sonoran Desert and to tackle the tough issues associated with 
conservation and growth and to meet Federal regulatory 
requirements.
    That plan is being well advanced. It's being implemented. 
It's being implemented with the cooperation and the funding 
from taxpayers in Pima County.
    If we look back at the last 20, 25 years, the people of 
Pima County, through bond issues, have voted to approve 
spending $300 million to acquire sensitive land in the Sonoran 
Desert. They have done that, and in doing so, they have made 
Pima County the six largest land manager in the region.
    We have purchased and control today over 85,000 acres of 
fee land and 160,000 acres of either State trust grazing land 
or Federal grazing land for purposes of the conservation plan.
    The buffelgrass threat is something that, in that invasion, 
puts our investment in jeopardy. We may lose the fundamental 
purpose of those investments in preserving and protection of 
the Sonoran Desert.
    The board of supervisors, when you were a member and today, 
continues to be very concerned about buffelgrass. We have 
adopted ordinances. We have prohibited it and have caused it to 
be deemed a noxious weed.
    We now have the ability to regulate it on private 
properties. We have done all those things, but we're still 
losing ground at a very rapid rate.
    Because of our proximity in this valley and the 
relationship of other Federal land managers, we share 
boundaries with Federal land management agencies that are 
extensive and often very adjacent to our urban footprint today. 
Those agencies include the Bureau of Land Management, the 
Forest Service, the National Park Service, the United States 
Fish and Wildlife Service and our State trust land. They're all 
very important partners with dealing with this issue.
    It's very critical that the county and we all continue to 
work more closely in the future, on our buffelgrass control 
efforts.
    Because of the aggressive nature of buffelgrass, this is 
not a simple we can go pull it out and we're done. It take 
successive periods of time to be able to eradicate it, probably 
in a period of five to ten years.
    I'd like to conclude my statement by giving a few points 
that we think are important. It's important that Federal 
agencies, within the county, have adequate and sustained 
funding with which to systematically control buffelgrass 
infestation on their lands and so they can be controlled and 
they don't spread to other lands within Pima County.
    We would suggest that the Federal Government do the same 
that the local government has done. What the State government 
has done is to classify buffelgrass, as a Federal action, as an 
invasive species, and that any further research, with regard to 
its use, be ceased and not funded by the Federal Government.
    We would like to think its important to direct all Federal 
land management agencies to be active participants. I think 
they are voluntarily today, but it would be appropriate to 
ensure that they intend to be very active in the Southern 
Arizona Buffelgrass Coordination Center, and it's important 
that funding be provided, funding to both the Federal 
Government and local jurisdictions, to address the infestation 
and to begin actions to reverse it.
    We also believe that the Federal Government needs adequate 
flexibility and authority necessary, under planning documents, 
to deal with these issues, as opposed to being delayed for 
months and for years in updating their planning documents to 
allow them to take control of the situation.
    We also think that we should fund and direct certain 
research efforts for controlling buffelgrass, and that we study 
and know fully the social and other impacts of buffelgrass, if 
the infestation continues uncontrolled.
    We believe that it is, in fact, an issue that has been 
largely overlooked and is also one that could cause huge 
impacts almost instantaneously because of the public safety 
threat today.
    I'd like to thank you for holding this hearing and allowing 
everyone to express our concerns and to better understand the 
threat of this invasive species.
    [The prepared statement of Mr. Huckelberry follows:]

         Statement of C.H. Huckelberry, County Administrator, 
                          Pima County, Arizona

I. Introduction
    Chairman Grijalva and subcommittee members, I would like to thank 
you for holding this hearing on the ecological and social challenges of 
controlling the buffelgrass (Pennisetum ciliare) invasion in the 
southwest and for inviting Pima County to testify. The impact of the 
buffelgrass invasion on federal lands, and consequently on the adjacent 
County lands, is of great importance to the residents and visitors to 
southern Arizona. Therefore, I greatly appreciate this opportunity to 
formally convey concerns on behalf of Pima County.
    Unfortunately, Pima County seems to be ground zero in the 
buffelgrass invasion in Arizona, and the presence of this invasive 
exotic grass threatens the very existence of the Sonoran Desert in our 
region. Only through the coordinated partnership efforts of local 
jurisdictions, NGOs, state agencies and the federal government can we 
systematically and aggressively address this threat on the many fronts 
necessary. To do otherwise could seal the fate of the demise of the 
Sonoran Desert as we know it today, and the accompanying ecological and 
economic disaster is unacceptable.
    There is little question within the scientific community about the 
potential impacts and alteration of the fundamental workings of the 
Sonoran Desert ecosystem that the buffelgrass invasion can bring. One 
only needs to look south to Mexico to see the catastrophic changes to 
native plant communities where buffelgrass has been introduced and not 
controlled to gain a strong sense of urgency. We do not want to see our 
region follow the same destructive pathway and a similar ecological 
fate.
II. The Risks of the Buffelgrass Invasion to Pima County
    The current buffelgrass invasion's roots can be traced back to the 
well meaning, but now clearly understood as ill advised, introduction 
of the grass for erosion control and livestock forage in the 1930s by 
federal land managers. For over 60 years, the grass was spread around 
the region by agencies and individuals; yet the distribution and 
density of the introductions were generally contained. In the last 
decade, however, a rapid and dramatic expansion of the grass 
distribution, as well as the size and density of existing patches, has 
dramatically increased, leading to the current crisis conditions.
    Pima County has experienced tremendous population growth and is 
dealing with the challenges of accommodating continued growth while 
conserving the watersheds and unique natural areas that are a vital 
part of the quality of life in our communities and that bring new 
residents and visitors to our area. Pima County has been implementing a 
regional plan, the Sonoran Desert Conservation Plan, which balances 
these growth issues and minimizes the need for federal regulatory 
actions that can be divisive. Public support for the Sonoran Desert 
Conservation Plan has been very high, as demonstrated by voter approval 
of $174 million in bond funds to purchase lands for conservation.
    The County's current network of biologically important lands 
includes more than 85,000 acres of fee title lands and another 100,000 
acres of state and federal grazing leases held for conservation uses by 
Pima County. Added to that is over 1.5 million acres of federally owned 
conservation lands within the over all Sonoran Desert Conservation Plan 
identified planning boundaries. Many of these lands are in direct 
jeopardy of losing their fundamental conservation and natural habitat 
values due to the buffelgrass invasion. The risk to the key 
conservation lands in Pima County like Saguaro National Park, Organ 
Pipe Cactus National Monument, Cienega Creek Natural Preserve, Las 
Cienegas National Conservation Area, Ironwood Forest National Monument, 
Catalina Ranger District of the Coronado National Forest and the 85,000 
acres acquired by Pima County is real and inevitable without strong 
action and leadership by both local jurisdictions and the federal 
government. The visionary outcomes of the Sonoran Desert Conservation 
Plan will be increasingly difficult, if not impossible, to achieve if 
the buffelgrass invasion is not controlled. The investment and 
commitment by Pima County of millions of dollars and tens of thousands 
of hours of community planning efforts will have been in vain.
    Like many areas with unique natural resources and important 
National Parks and Monuments, tourism is an important component of the 
local economy. Imagine the impact on the local economy if the iconic 
Sonoran Desert is significantly altered or lost. The saguaro cactus is 
extremely susceptible to the increased fire regimes brought to the 
historically fire resistant desert ecosystem with the buffelgrass 
invasion and could be lost. Lose the natural systems that have 
attracted residents and visitors from around the world and the impacts 
will unquestionably ripple through the local economy. Tourism and bed 
tax revenues will decline, property values will be reduced, 
infrastructure will have to be modified to be protected from annual 
buffelgrass fires, and fire suppression time commitments and costs will 
increase thus reducing the ability of fire agencies to also respond to 
routine medical calls. At this time, the full impact of the current 
buffelgrass invasion on the local economy is not entirely understood. 
However, even the more conservative projections place the impacts at 
hundreds of millions of dollars over time. An emerging environmental 
issue of this magnitude cannot be ignored.
III. Pima County's Current Investment in Buffelgrass Control
    Pima County has been developing responses to the buffelgrass 
invasion since the late 1990s. In October 2005, the Pima County Board 
of Supervisors passed a resolution establishing an Invasive Species 
Working Group to coordinate actions and activities within the County 
structure. This working group identified buffelgrass as a priority 
species and has worked to integrate buffelgrass control activities 
across the various Public Works agencies with land management 
responsibilities. The policy guidance from the Board also directed 
County staff to play a visible and supportive role in coordinating 
buffelgrass planning and control efforts. The County investment in 
those programs is thousands of staff hours and hundreds of thousands of 
dollars annually and would be more if overall budgetary resources were 
not currently so constrained. The County's commitment to this issue has 
been clear, visible and supported with on-the-ground funding.
    In February 2007, the Board of Supervisors again passed a 
resolution targeting policy efforts to control buffelgrass as part of 
the lead up to the first Buffelgrass Summit held in Pima County. In 
that resolution, the Board of Supervisors stated ``...the Pima County 
Board of Supervisors strongly supports the 2007 Pima County Buffelgrass 
Summit and its stated outcomes, and encourages in the strongest terms 
that local, state and national agencies, jurisdictions and 
organizations allocate human and financial resources to assist in 
coordinated buffelgrass control efforts in their areas of 
responsibility as well as the County as a whole, until control efforts 
have been determined effective.'' Unfortunately, that call to action 
did not result in the desired visible support. Responses from key 
partners have ranged from a lack of available funds, questions 
regarding the actual severity of the issue, lack of information on 
buffelgrass distribution, no staff resources to take on additional 
projects, and a general lack of pressure from the public to take 
action.
    In 2000, a volunteer group was formed by the County called the 
Sonoran Desert Weedwackers, to combat buffelgrass in Tucson Mountain 
Park. This group of community volunteers has invested over 30,000 hours 
over the past decade at a value to the County conservation efforts of 
over $450,000. We have conservation education staff that conduct 
community programs on buffelgrass awareness and how to take action at 
the local community level and how to conduct volunteer control projects 
and events. The County utilizes Summer Youth work crews to conduct 
buffelgrass control projects on County lands and roadways each summer.
    Adult probationers are also used to conduct buffelgrass control 
programs along roadways and in neighborhoods as part of their community 
restitution program. County staff assists with the annual Beat Back 
Buffelgrass Day activities across the Tucson basin and provides 
significant amounts of information to the public on the buffelgrass 
issue and ways for people to take positive action and be part of the 
solution. Community awareness of the dangers of buffelgrass invasion is 
at an all-time high. There can no longer be a question of public 
interest and demand for government, at both the local and national 
levels, to take action.
    In 2009, the County adopted a modification of the current Weed 
Ordinance in the unincorporated portions of the County that allows the 
County to require removal of buffelgrass infestations on private lands 
where they are determined to be a public health and safety risk. Our 
major utility companies have agreed to voluntarily control buffelgrass 
and other invasive plants on County rights of way where they disturb 
the ground as part of their development and maintenance activities, 
since these pathways have been found to be major vectors for the 
movement of buffelgrass within the urban areas.
    One of the more significant efforts the County has made is to 
support the Southern Arizona Buffelgrass Coordination Center (SABCC). 
The County took a leadership role in the formation of the group and is 
one of its major financial sponsors at this time. SABCC is an important 
link in actually bringing the major land management agencies to the 
table to begin coordination efforts on the scale necessary to actually 
tip the buffelgrass war back in our favor. This nonprofit organization 
needs broad based support and a commitment of resources to meet its 
potential. Unfortunately, once again, the financial resources necessary 
to move our collaborative efforts forward are slow in coming. 
Participation of some federal agencies could be improved and financial 
support more forth coming. This is one area that the federal government 
could be of specific assistance. All opportunities need to be explored 
and supported to get the SABCC a steady flow of the resources it needs 
to be an effective facilitator for research, control projects and 
public outreach. This role could not be played as well by any other 
local organization, institution or jurisdiction.
IV. Interrelationships with Federal Lands and Future Scenarios
    Pima County enjoys hundreds of miles of shared boundary with 
federal land management agencies. At some points, the County urban 
footprint directly adjoins the federal lands. The National Park 
Service, Bureau of Land Management and the U.S. Forest Service manage 
the largest units of those federal lands. The County has maintained a 
strong working partnership for many years with the various agencies and 
under the Sonoran Desert Conservation Plan, the health of those federal 
lands within Pima County will play important roles in the future growth 
and conservation priorities of our County.
    The current lack of a systematic effort to control buffelgrass is a 
clear and multi-jurisdictional concern. The potential for fire to move 
back and forth across the land boundaries is a real threat and 
currently without any comprehensive strategies to combat such 
occurrences. Current efforts by the Forest Service in their Coronado 
National Forest Firescape planning process shows promise, but it will 
take time to mature and be implemented. Buffelgrass control needs to be 
integrated into all local fire plans, and we would hope to explore in 
the near future the development of a County level Community Action Fire 
Plan to focus on the needs and strategies required to address the new 
fire regimes the buffelgrass invasion has created. Because of the many, 
expanding interface zones of buffelgrass infestations and urban growth, 
the potential for loss of life and property from a catastrophic fire is 
a real possibility if strategic control actions are not taken 
immediately. New fire models on public lands show a bleak future and 
fire behavior previously unknown to our desert ecosystem. The front 
face of the Catalina Mountains appears to be an especially vulnerable 
area at this time. Federal agency participation and support is critical 
to a successful outcome to establishing comprehensive fire management 
strategies and defendable spaces. The emerging buffelgrass fire 
concerns in southern Arizona rival those in the pine type of northern 
Arizona and warrant the same types of resource allocations in the 
future.
    At the present time, while federal agencies in Arizona expend 
limited resources to combat the buffelgrass invasion, the U.S. 
Department of Agriculture is working to hybridize this exotic invasive 
grass to make it more cold tolerant. Because of the proven serious 
invasive nature of buffelgrass in the desert ecosystem, the federal 
government should be restricting all activity in use or development of 
hybrids of this invader. It seems counter to good environmental policy 
to have some federal agencies fighting buffelgrass and others trying to 
make the species more adaptable. How can this expenditure of federal 
funds be justified when we at the local level are paying the price? Why 
is buffelgrass not being recognized as the invasive species it is by 
the federal government and its use and distribution by all agencies, 
both inside and outside the United States, prohibited? Arizona has 
taken action within our borders; we need the federal government to 
recognize that need and mirror local actions.
    It is critical that the County and federal land management agencies 
work closely on future buffelgrass control efforts. Joint multi-year 
projects will be necessary to ensure that resources are being targeted 
on the priority areas and that adequate project boundaries are treated 
to ensure that seed banks of the grass are not maintained on adjoining 
lands. Based on the most recent discussions, it appears that most of 
the local federal agencies do not have adequate resources available to 
address the buffelgrass invasion with a systemic approach. Funding 
commitments from the federal government must be adequate for the task 
and sustained over the necessary life of control efforts. Because of 
the aggressive nature of buffelgrass and long-lived seed banks, control 
efforts must be considered in terms of three to five repeat year 
treatments and not single year efforts in any given area.
    In the past, Saguaro National Park implemented comprehensive 
control programs only to see funding cut and much of their positive 
effort lost due to the inability to apply the necessary continued 
control effort. Ultimately, they experienced a reestablishment of 
buffelgrass in specific areas previously treated for several years 
within the park. This is a disappointing waste of manpower, funding and 
control effort impact.
    Pima County is facing a rapidly diminishing timeline for effective 
action. Action response needs to be intensified and measured in years, 
not decades. The County and federal lands infested with buffelgrass 
need aggressive treatments now. If we wait a decade, it may well be too 
late, and the costs of required routine control efforts to contain the 
inevitable fires will be far greater than potential control efforts 
today. Buffelgrass knows no boundaries; therefore, the County and 
adjacent federal lands must be viewed as a holistic ecological system. 
The County cannot continue to focus resources on lands adjacent to 
public lands without assurance of support from federal agencies to 
address the buffelgrass problem cooperatively, collaboratively and 
effectively.
V. Summary and Recommendations
    We have an ecological and economic disaster looming on the horizon, 
and parties are working diligently to avert that impending disaster. 
However, the commitments and resources necessary to address the issue 
are not available or coordinated at a level necessary to move concern 
to true action. Because buffelgrass knows no boundaries and much of the 
current infestation is on federal lands, the problem is one of local, 
state and federal significance. All of the land management agencies 
must be active and committed participants in control efforts and public 
outreach. We cannot adequately address this issue from just the local 
level. The federal government needs to provide its local units with the 
funding and tools necessary to address the buffelgrass invasion 
responsibly.
    I would like to conclude this testimony by listing the following 
recommendations that the federal government could take that I believe 
will make a measurable difference in the fight to control buffelgrass 
now and into the future:
    <bullet>  Ensure that federal agencies in Pima County have adequate 
and sustained funding to systematically control buffelgrass 
infestations on their lands with special emphasis on those shared 
boundaries with Pima County and the urban lands interface.
    <bullet>  Cease any further work on hybridization of buffelgrass 
and distribution of this invasive exotic grass outside of its native 
habitats.
    <bullet>  Direct all of the federal land management agencies in 
Pima County to be active participants and funding support partners with 
the Southern Arizona Buffelgrass Coordination Center.
    <bullet>  Provide local jurisdictions and organizations in Pima 
County with emergency funding support to address buffelgrass 
infestation control efforts on lands that border federal public lands.
    <bullet>  Ensure that the federal land management agencies have 
adequate authority and planning documents in place to take aggressive 
action with all the control tools available when implementing 
buffelgrass control programs.
    <bullet>  Direct and fund the federal agencies to increase research 
efforts into the ecology, control methodology and social implications 
of the current buffelgrass infestation.
    I hope I have communicated to you a sense of urgency in the need to 
address the buffelgrass issue head on and allocate the resources at the 
federal level necessary to make a difference in the open space lands we 
cherish. The areas of interface between Pima County and federal lands 
are too important for watershed protection, habitats for special status 
species of plants and animals and our local tax base to not step 
forward and address the buffelgrass invasion now. If we do not address 
this invasion by an exotic, human introduced species cooperatively, 
aggressively and financially we will share the disastrous environmental 
and economic consequences of inaction.
    Again, thank you for inviting Pima County to provide testimony on 
this most critical and time sensitive environmental issue.
                                 ______
                                 
    Mr. Grijalva. Thank you, Mr. Huckelberry, and your point 
about public safety, I appreciate that a lot. I think that 
needs to be integrated fully into the overall discussion, even 
with the invasive species, that it threatens biological 
diversity, but it threatens life and limb.
    And I think people will understand, one, in one sense the 
urgency of that, like many of us in this room. The other one 
has an urgency to it, and I, for one, think we should integrate 
that as part of the discussions on this. So I appreciate that.
    I couldn't agree with you more about the classification. 
That's something we're going to pursue to add it to the list 
and to attach to that the fact that we, the Federal Government, 
should not be funding efforts to promulgate buffelgrass, 
whether it's through research or through demands from certain 
industries that that is part of the feeding cycle for 
livestock.
    And it's going to be a little bit of a fight, but I think 
the science is there. The threat is evident, and I think we can 
justify pushing for that legislative classification. Thank you 
for that.
    We heard today about agencies working together, state, 
local, private entities, Federal agencies, to coordinate its 
efforts to combat buffelgrass. In your written testimony, you 
state some concerns about maybe some of the efforts of the 
Forest Service have been counterproductive in that effort. Can 
you elaborate on those, or did I misread your testimony?
    Mr. Huckelberry. I think it's fragmented. What occurs one 
year, doesn't occur the next year and there's inconsistent 
application. It's a whole issue of whether it becomes a 
statement and a guiding principle, and why it's adopted and why 
it's in the document. Those things need to be addressed so 
there's consistency, because if you take some actions and 
they're funded for a short period of time to eradicate 
buffelgrass, and then you're not--then you don't, it doesn't 
work.
    So there has to be an understanding. There needs to be a 
continued effort and indeed basically carried forward from one 
land manager to another. And that then is institutionalized to 
the long range plan, management planning documents.
    Mr. Grijalva. And that was your point?
    Mr. Huckelberry. Yes, sir.
    Mr. Grijalva. I think Ms. Krueger made that point about not 
putting limitations of three years, five years, that this be an 
ongoing and consistent effort.
    The Federal Government is a nexus both for our needs, 
classification, flexibility on the planning documents so land 
managers can react and also the nexus for funding.
    Given all the constraints that are going on budgetarily in 
this state and across the Nation, I see local jurisdictions and 
state government being less able to respond with funding for 
this, and that kind of begs the question about where that 
funding nexus is going to come from. I think it needs to be the 
Federal Government. Your response to that?
    Mr. Huckelberry. Mr. Chairman, as you know, states are 
fiscally stressed. They pass that fiscal stress back down to 
the local government, but they have other resources that, if 
properly managed and directed, can, in fact, become a component 
of fighting the buffelgrass these days, and I'll give you 
another example.
    In Pima County, we have adult corrections. They can 
actually be directed to these efforts from a manual eradication 
perspective, but they require equipment, supervision, control, 
and it costs money.
    And so I see those kinds of grants that could come from the 
Federal Government and then actually take programs that are 
under stress today and make them more effective.
    Mr. Grijalva. Thank you, Mr. Huckelberry.
    We will now hear from Dr. John Brock, Brock Habitat 
Restoration and Invasive Plant Management. Welcome, Doctor. 
We'd like to hear your testimony.

STATEMENT OF JOHN BROCK, BROCK HABITAT RESTORATION AND INVASIVE 
                PLANT MANAGEMENT, TEMPE, ARIZONA

    Dr. Brock. Thank you, Congressman Grijalva, for asking me 
here. Part of my other background, my other life, I was for 31 
years at ASU, Arizona State University, as a professor on the 
faculty there. So that explains a little bit of my----
    Mr. Grijalva. We all have our cross to bear.
    Dr. Brock. It was a tough life but someone had to do it. 
One of the nice things about being the last person in a 
testimonial line like this is that all the good things have 
been said, and I could just quietly walk off.
    But buffelgrass, I think, was introduced in the United 
States in the early 1930s, and it actually didn't take the 
first time. In the early 1940s it was reintroduced, and 
obviously it made it.
    Buffelgrass, as an invasive species, is fairly unique. It's 
one of those invasive species, kind of like Russian Olive, that 
was introduced and almost immediately people recognized the 
thing was invasive and it was spreading beyond the limits.
    Specifically, invasive plants have a lag time, from the 
time they're introduced, until they start really spreading. 
Buffelgrass is one of those that didn't act that way. It 
started spreading almost immediately after it was introduced.
    Buffelgrass is--when we talk about it being an 
international problem, it truly is a global problem because 
buffelgrass is on the top 20 unwanted plants in Australia, and 
they have literally millions of acres of buffelgrass in 
Australia as well.
    My first experience with buffelgrass was actually when I 
worked at Texas Agricultural Experiment Station in Texas in the 
early 1970s. I was on a ranch down in Southern Texas when they 
were root-plowing and digging brush and seeding buffelgrass on 
that land.
    That landowner later became one of the Governors of Texas, 
but it was quite awhile ago. It wasn't the one that was just 
Governor and then President awhile ago. It was a different one.
    Mr. Grijalva. I was going to add another blamegate here.
    Dr. Brock. Also when I was working at the experiment 
station in Texas, I worked out of Lubbock. And one day I got a 
telephone call from the main campus, from the plant breeders, 
asking me if I'd be willing to work with them on a project 
evaluating cold tolerant buffelgrass strains that they had been 
working on, the forage plant breeders had been working with.
    And I had eight strains of buffelgrass shipped to me up to 
Lubbock. The first winter some of the buffelgrass actually 
survived. The second winter, temperatures got down to about 5 
degrees, and they died. So that was that at that point.
    But even in the 1970s, people were working to try to get 
cold tolerant buffelgrass, and what they were doing was 
crossing it with other species in the Cenchrus genus. A real 
common one of those is the common sand burr. But anyway that 
was my experience.
    When I came to Arizona, in '77, buffelgrass was not much of 
a deal at all. I remember seeing it being planted down on the 
Santa Rita Experimental Range at that particular time, and so 
it was just something that, well, people are planting it and 
the invasive nature of it wasn't being recognized by very many 
people, but it was being planted.
    And then about 1985, at ASU, I was given a new teaching 
assignment that included buffelgrass on that list. And I used 
to have to go to one specific spot in Phoenix, on I-17, to find 
buffelgrass to bring a specimen to class. Fifteen years later, 
I could pick it up on my bicycle going to campus.
    And so it spread fairly rapidly. So it's still spreading. 
So it's spreading along the transportation corridors around 
Phoenix, and it's continuing to spread. It's going to find new 
microsites, particularly when we have--the full effects of 
global warming are coming on.
    It's a difficult case for vegetation managers. And in my 
testimony, I list actually seven things we could do to 
control--try to control buffelgrass. The first one is 
prevention, and like Dr. Mack talked about with biological 
control.
    But there are seven things we could do. We talked about 
those this morning. I've been pretty active in looking for 
herbicide screening for buffelgrass. Of course, Round-Up, 
glyphosate herbicide works quite well for it, if the plant is 
green and we can get the coverage on the plants.
    I've been looking at broadcast sprays with several 
different herbicide with minimal successes, but I'm continuing 
that. I started some studies in 2008, 2009. Both of those are 
still active.
    What I'm going to do next is try to eliminate a bunch of 
things that didn't work and try to focus more on--there have 
been some other studies. But my recommendations this morning is 
that a concerted effort be put together taking the best 
knowledge of the people in the State or everywhere, getting all 
that knowledge together, getting research and demonstration 
teams going, much like were laid forth in the presentations 
earlier, and by particularly Southern Arizona Buffelgrass 
Group. We can do that. We've got plenty of expertise in the 
State installed to interpret and evaluation those kind of 
results.
    And the second recommendation is that really immediate 
effort be made by APHIS, the U.S. Department of Agriculture. 
They're the ones that do the biological and control-type work. 
Get an immediate project going on that.
    There's a spill-wet that controls buffelgrass--that can 
control buffelgrass. It attacks buffelgrass. The current 
technique, to get rid of buffelgrass stands, is for the 
ranchers or the farmers to burn those fields to get rid of that 
pest, and it will kill buffelgrass plants.
    There is also a disease--there's plant disease, but also a 
fungi, I believe, that will get on buffelgrass. And it's 
another way they control that, and again actually burn the 
pastures to get rid of it.
    I believe there are some things that could be done with 
biological control, but much more the emphasis has to be put on 
really trying to treat it as a forage material and much less on 
bio control. That's my comment. Thank you very much.
    [The prepared statement of Dr. Brock follows:]

  Statement of Dr. John Brock, Brock Habitat Restoration and Invasive 
  Plant Management, and Professor Emeritus, Arizona State University 
                      Polytechnic, Tempe, Arizona

    Buffelgrass is native to the veld of central Africa. Its taxonomic 
classification is as follows: Family: Poaceae, Grass Tribe: Paniceae, 
Genus and species : Pennisetum cilare (L.) Link (syn) Cenchrus ciliaris 
L. Buffelgrass is a perennial bunchgrass that is adapted to sub 
tropical habitats around the world. While being a native to sub 
tropical climate grasslands, buffelgrass is well adapted to dry periods 
and can withstand prolonged drought conditions. Buffelgrass was 
introduced the United States in the 1930's and that introduction 
failed. In the early 1940's a successful introduction was made. 
Buffelgrass was first introduced in Texas, New Mexico and Arizona, and 
fairly soon thereafter to neighboring states in Mexico. Buffelgrass 
began to show its invasive nature fairly early after introduction. 
Often perennial plants show a lag time of decades from the time of 
introduction to invasion, this was not quite the case for buffelgrass. 
According to the USDA's Plant Data base, buffelgrass is now found in 1O 
states, and is in Puerto Rico. Buffelgrass is widely found in Hawaii, 
along with fountain grass, Pennisetum setaceum, which has escaped urban 
landscapes and is invading the Sonoran Desert at well. Buffelgrass is 
one Australia's most unwanted plants and has invade vast areas of that 
country's deserts.
    My first experience with buffelgrass was in about 1972 while doing 
rangeland improvement projects in south Texas. In that case, mixed 
brush was being removed from rangeland and this introduced African 
grass was being planted to increase forage production for livestock 
grazing. Buffelgrass showed advantages over the native grasses in that 
it was easy to establish from seed, reached maturity rapidly, and 
provided palatable forage to domestic livestock, especially cattle. 
Forage yield measurements showed that buffelgrass pastures could 
produce in excess of 4,000 pounds per acre, in years of favorable 
rainfall. In the mid 1970's I planted accessions of buffelgrass at the 
Texas Agricultural Experiment Stations at Lubbock and Spur, Texas to 
test them for winter hardiness. At that time forage plant breeders were 
attempting to increase cold tolerance in buffelgrass by crossing it 
with other species in the Cenchrus genus. The first winter was mild and 
some of the buffelgrass plants survived at both locations. However in 
the second winter low temperatures approached zero degrees and all of 
the plants were winter killed.
    When I arrived in Arizona in 1977, buffelgrass was not very common, 
especially in the Phoenix area. However it was being planted in 
southern Arizona, including trial plantings on the Santa Rita 
Experimental Range. At Arizona State University, in about 1985 I began 
teaching the course ``Range Plant Identification''. To instruct this 
class, we used, as part of the material, a plant list of 200 rangeland 
plant species utilized in the Society of Range Management annual 
meeting plant ID contest for undergraduate students. Buffelgrass was on 
this list. I liked to use fresh specimens if possible for laboratory 
instruction and ID tests. At this time, I could only find buffelgrass 
near the interchange at 7th Ave and I-10 in the Phoenix area. For 
several years, I would go to that site to collect buffelgrass. Later, 
about 1990, I was able to find it growing at industrial type areas in 
north Tempe. Before moving to ASU Polytechnic in 1999, I would collect 
buffelgrass on my bike ride to the ASU Tempe campus. It was also about 
this time when buffelgrass became established on ``A'' mountain in 
Tempe, since that was a site I would take students on fieldtrips for 
plant identification. At the present time, buffelgrass can be easily 
found along roadsides and other disturbed sites in what is known as the 
East Valley.
    Buffelgrass is spreading along transportation corridors and is 
firmly established to the east of Fountain Hills. To the north of 
Phoenix, along I-17, it is found as far north as Black Canyon City. I 
believe it will continue to spread northward and find microclimate 
sites for establishment and with the advent of climate change, will 
continue to advance into the upper Sonoran Desert characteristic of the 
landscapes north of the Phoenix area. Buffelgrass impacts the Sonoran 
Desert in two ways. One the presence of this plant can provide strong 
competition to native plants and result in a monotypic vegetation 
stand. This obviously decreases plant biodiversity, but also can change 
animal populations because of the limited food source and decrease 
overall biodiversity. Secondly, buffelgrass presents a perennial fine 
fuel that can promote wildfires. Sonoran Desert vegetation is not 
adapted to fire and many of the signature plants of the Sonoran Desert 
are killed in wild fires.
    Buffelgrass is presenting a difficult case for vegetation managers. 
Vegetation managers have seven categories of management to direct 
toward a plant species. These include: (1). Prevention of introduction, 
(2). Manual, which can be labor intensive (3) Cultural practices which 
includes things like crop rotation and directed livestock grazing, (4). 
Mechanical treatments involve equipment like plows and mowing, however, 
on most Sonoran Desert sites, these actions would have little value, 
(5). Chemical treatments most commonly focus on herbicides, (6). Fire, 
and (7) Biological control agents.
    There are reports of insect and plant disease damage to 
buffelgrass. A spittle bug can attack buffelgrass causing plant death, 
however, the common response by land managers who want buffelgrass is 
to burn the pasture to control the spittle bug. Buffelgrass developed 
under a natural fire regime in Africa and is tolerant to fire, although 
prescribed fire during summer dormancy can cause mortality to the 
population, but the losses are quickly replaced by seedling 
recruitment. Directed grazing as a form of biological control has been 
considered for buffelgrass, but buffelgrass is well adapted to grazing 
pressures. If ``overgrazed'' it can develop a decumbent growth form 
which helps it escape some of the grazing pressure. Manual removal of 
buffelgrass can be very effective. Manual control works best when the 
soil is moist and persons doing this practice return to the site for 
several years to find any new invading buffelgrass plants.
    Herbicides can control buffelgrass. The most common herbicide 
applied for buffelgrass control is Roundup (glyphosate) or the generic 
equivalents of this herbicide. Roundup works best when buffelgrass is 
in a full green state. Glyphosate based herbicides are not selective 
herbicide hence, care during application is needed not to harm non-
target plant species. In recent tests, Arsenal or Habitat herbicides 
(imazapyr) has been found to be effective against buffelgrass. Imazapyr 
also is not a selective herbicide, so collateral damage to non-target 
plants would be expected if this herbicide was applied as a broadcast 
spray. Buffelgrass can be controlled, based on research in Texas, with 
applications of Spike or Graslan (tebuthiuron. To get effective control 
tebuthiuron was applied at high rates, about 2 lbs ai/ac, and 
tebuthiuron is a persistent herbicide that ties readily to soil organic 
matter and plant tissues. Research for buffelgrass control with 
herbicides with more selectivity have shown that buffelgrass is not 
very susceptible to those compounds. For example Oust herbicide 
(sulfometuron) is selective but has intermediate control effects on 
buffelgrass, as does Accent herbicide (nicosulfuron). These preliminary 
observations are from treatments made to buffelgrass in September of 
2009. As with most perennial invasive species, conclusive statements as 
to vegetation management treatments should be made after 1 or 2 
complete growing seasons. Herbicides more specifically developed for 
grasses (gramacides) have shown little effectiveness to buffelgrass 
control. What is needed at this time are controlled herbicide tests 
made to buffelgrass growing among native Sonoran Desert vegetation, 
using the best herbicide management practices.
    My recommendation would to be actively begin research/demonstration 
tests for buffelgrass control in the Sonoran desert using the best 
information available. I believe this will involve a team approach and 
team members are present within Arizona to design, install, evaluate 
and interpret such tests. A second recommendation is that an immediate 
effort be put forth by the Animal and Plant Health Inspection Service 
(APHIS), an agency within the U.S. Department of Agriculture, charged 
with assisting in biological control strategies for management of 
invasive species, to find biological control agents targeted to 
buffelgrass.
                                 ______
                                 
    Mr. Grijalva. Two questions in one, having to deal with a 
comment you made about climate change. Is part of the migration 
up north due to cooling of temperatures, and on that same 
issue, how is that worsening buffelgrass infestation in the 
Sonoran Desert?
    Dr. Brock. Climate change, from my observations, is moving 
north. I make that road trip from Phoenix to Flagstaff once in 
a while but much more commonly to Payson. I've seen it going up 
the mile markers to Payson. Fountain grass or Pennisetum 
setaceum is a close relative and is even farther north than 
buffelgrass. But the other part of that was--gosh, now my 
senior moment came. What was the second part of that?
    Mr. Grijalva. Is it worsening?
    Dr. Brock. Oh, yeah, yeah. Yes, I believe it is. 
Buffelgrass is a subtropical grass, and I believe that the 
changing environment--there are things, too--global climate 
change has a bunch of components.
    One is temperature, carbon dioxide in the atmosphere and 
then the other thing is that people don't seem to think too 
much about either is hydrogen deposition in terms of all the 
air pollutants. So I believe all three of those are working 
together to allow buffelgrass stands to expand and become a 
little more vigorous.
    Mr. Grijalva. Thank you, sir. I appreciate it. I want to 
thank all the panelists for the hearing today. The information 
today plus, for all the panelists, the questions that I want to 
submit and for the sake of time and other reasons I didn't ask 
today, but if you could get that back to us as soon as possible 
for a couple of reasons: One, to have a strong record of this 
hearing, number one, and the recommendations that we heard; 
Number two, back to the point that Ms. Smallhouse made, that we 
are going to continue our efforts to secure some early 
demonstration money for the region, and like the last time, we 
hope that the appropriators will, based on today and the body 
of evidence that is available now, be more responsive to the 
requests.
    So we'll make that effort, and we thank the alliance for 
their help in pushing some of our appropriators that that's a 
good thing to fund down here. That's truly a funding request, 
implications all over.
    And the legislative work, I think it's important to raise 
this to an imminent threat status to where it should be, and I 
think it will help us most on the funding side.
    I think the point that Chuck made, and in other parts of 
the testimony, about creating management and planned 
flexibility for plant managers so they have the ability to move 
and rapidly respond to situations.
    And I think part of the hearing has to be about the cost 
benefits. If we would have spent the money that we should have 
20 years ago, we wouldn't be talking to the grave situation 
that we find ourselves in now.
    And rather than be foolish about that, I think this is--we 
have to look at the cost, but we also have to look at the 
benefit of making the investment now as opposed to waiting 
another ten years when the crisis perhaps is to the point that 
we can't tip it over in the other direction.
    And so on the scale of how it's spreading, this is 
something everyone should be terribly, terribly concerned 
about, and I think that helps us with our argument about cost 
benefit, that it's not just Southern Arizona. It's going to 
affect the State. And thank you for that, Doctor.
    It's going to affect other parts of the country, and there 
are multiple responses we need to take, and all of them are 
codependent on our ability to have that sustained funding, so 
that land managers in local community can begin the control 
process, and that we have the flexibility, once classification 
is done, for some real R&D work down the road.
    The tri-national point about this, this invasion has no 
boundaries between jurisdictions and between nations, so the 
coordination has to be some effort and some resources dedicated 
both to helping tribes and to enhancing the bi-national 
cooperation with our neighbors to the South. It is essential.
    And the educational component is going to be critical. We 
are going to continue to work now on the--I don't want to call 
it demonstration funding anymore. I think we're past the 
demonstration point.
    We're going to attach the urgency that this hearing has 
produced, to our request, and push it. Beyond that, there's the 
legislative initiative, and a coordinated, comprehensive 
campaign to eradicate buffelgrass has to be the overarching 
goal that we have here.
    So we're real grateful for your testimony today. The staff 
has much good information and we're going to follow-up with 
some of you for additional information and additional help in 
helping us craft some of the initiatives that we're going to 
put together.
    Thank you so much. More than anything, not only was it 
informative, but I appreciate all of the people here, the 
panelists and the alliance, for the fact that you have done so 
well in taking this issue and not letting it settle under the 
radar, and hopefully this hearing will continue to profile the 
fact that there's a clear, imminent threat to the biological 
diversity of the region and to the health and safety of the 
people of the region.
    With that, I want to thank you again and I appreciate very 
much your attendance and fine work. Thank you. The meeting is 
adjourned.
    [Whereupon, at 11:40 a.m., the Subcommittee was adjourned.]

    [NOTE: The individuals listed below have submitted 
documents for the record, which have been retained in the 
Committee's official files.]
    <bullet>  Bean, Travis M., Principal Research Specialist, 
University of Arizona
    <bullet>  Bloom, Claudia, Founder of the Phoenix Weedwackers
    <bullet>  Brigham, Linda A., Executive Director, Southern Arizona 
Buffelgrass Coordination Center
    <bullet>  Brown, Lasha, Executive Director, Friends of Ironwood 
Forest
    <bullet>  Brusca, Richard, Senior Director, Research & 
Conservation, Arizona-Sonora Desert Museum
    <bullet>  Dahl, Kevin, Arizona Program Manager, National Parks 
Conservation Association
    <bullet>  Graumlich, Lisa J., Professor, University of Arizona
    <bullet>  Green, Paul, Executive Director, Tucson Audubon Society
    <bullet>  Lovallo, Lisa, Vice President, Cox Communications
    <bullet>  McVie, Christina, Secretary, Board of Directors, Friends 
of Ironwood Forest and Conservation Committee Chair, Tucson Audubon 
Society
    <bullet>  Olsson, Aaryn, PhD Candidate, Arid Lands Resource 
Sciences, University of Arizona
    <bullet>  Remington, Richard, Senior Biologist, Logan Simpson 
Design, Inc.
    <bullet>  Skelton, Lynne, Mayro, Town of Sahuarita
    <bullet>  Whittle, Richard K., LTC (ret.), PhD, Wildlife Biologist, 
Barry M. Goldwater Range-East

                                 <all>

</pre></body></html>
